<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senator Nelson.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. This meeting will come to order. Senator 
Hoeven is not going to be able to join us today. So we will 
proceed as we would ordinarily.
    We meet this afternoon to take testimony on the fiscal year 
2012 budget request from the Government Accountability Office 
(GAO), the Government Printing Office (GPO), and the 
Congressional Budget Office (CBO).
    And I am happy to welcome today our witnesses--Gene Dodaro, 
Comptroller General; William Boarman, Public Printer; and Doug 
Elmendorf, Director of the CBO.
    I want to reiterate a few of my concerns going into fiscal 
year 2012. Here, in Washington, it is clear that we need to get 
serious about controlling and cutting costs. And I can't fix 
the entire problem of overspending in the Congress, but I hope 
we can set an example here in the legislative branch.
    I started this process last year, as everyone here and the 
witnesses can attest to, when Senator Murkowski and I worked 
together to make reductions to this bill. And this year, it is 
the goal of Senator Hoeven and I, to work together to make even 
further cuts to next year's budget.
    Cutting spending for the Congress is an effort to lead by 
example. In many ways, our message, to paraphrase Harry Truman, 
is, ``The buck shrinks here.''
    I appreciate the contributions made by each of our agencies 
in assisting the Congress in its service to the country. We are 
truly grateful for the work you do, and we look forward to 
hearing from you and discussing your budget requests.
    Mr. Dodaro, last year when you appeared before this 
subcommittee, I introduced you as Acting Comptroller General of 
the GAO. So I want to congratulate you on your confirmation as 
the eighth Comptroller General of the United States and also to 
recognize you for being the first career GAO employee to 
achieve this impressive milestone. That is really quite an 
accomplishment, and obviously, we wish for you to continue your 
good work and have our good wishes.
    This year, the GAO is requesting a total of $556.8 million, 
the same as the fiscal year 2010 enacted level, and a total of 
3,220 full-time equivalents (FTEs). I appreciate the work that 
you and your staff have put into keeping the GAO's budget 
request flat this year, and I look forward to hearing the 
specifics of the request, specifically where we might, if 
necessary, as we think it would be, to make some additional 
cuts.
    As you know, unfortunately, no good deed goes unpunished. 
And so, we will try to avoid having that happen. But thank you.
    This is your first time appearing before this subcommittee 
since your December 29 appointment to the post of Public 
Printer, Mr. Boarman. Congratulations on your appointment, and 
welcome.
    And I understand that the GPO recently celebrated 150 years 
of service to the Federal Government, and I would like to 
congratulate you and your entire staff on that accomplishment, 
as well. The GPO is requesting a total of $148.5 million, which 
is $1 million, or 0.7 percent, more than the fiscal year 2010 
enacted level.
    Dr. Elmendorf, it is always good to see you and good to see 
you again here today. The CBO is requesting $46.8 million in 
fiscal year 2012, an increase of roughly $1.7 million, or 3.8 
percent, more than the current year. As you and as I have 
discussed, there are some explanations that would be very 
helpful in relating previous years to the current year request, 
and I look forward to discussing the particulars of your budget 
in just a few minutes.
    Now let us begin, I would like to call on Mr. Dodaro for 
your opening statement, followed by Mr. Boarman, and then Dr. 
Elmendorf. And I hope, if you could, keep your opening 
statements as brief as possible, perhaps as little as 5 
minutes. But we wouldn't want to shut down your opportunity for 
opening comments.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to be here today to discuss 
the GAO's budget request for fiscal year 2012. I want to make 
sure we answer all your questions, so I will be very brief. I 
would like to make just four points.
    The first has to do with the breadth and scope of the GAO's 
support to the Congress. Second, is the return on investment 
that the Congress and the taxpayers receive as a result of 
their investment in the GAO. Third, is the importance we place 
on having a dedicated, skilled, and motivated workforce. And 
fourth, briefly, the rationale for our budget submission.
    First, in terms of the breadth of our support to the 
institution of the Congress, the GAO supports every standing 
committee of the Congress, and 70 percent of the subcommittees 
have requested our assistance. We issue hundreds of reports and 
testimonies every year across the full breadth of the Federal 
Government's responsibilities--from healthcare to defense. Just 
last week, for example, we testified at 13 hearings on 
everything from flood insurance to cybersecurity.
    The return on investment last year, as a result of the 
Congress and agencies implementing our recommendations, was 
$49.9 billion in financial benefits. That is an $87 return for 
every $1 invested in the GAO.
    Beyond this record, more than 1,300 other documented 
benefits occurred as a result of the GAO's work that didn't 
result in financial benefits, but resulted in improved service 
to the public or greater efficiencies and effectiveness of 
Government programs. For example, recommendations that we made 
improved oversight of nursing home safety.
    Eighty-two percent of our recommendations are implemented 
over a period of time. So we think we make--on a continual 
basis--a good effort to help ensure the accountability of the 
Federal Government and improve its performance.
    Now these accomplishments aren't possible without 
dedicated, talented people, and at the GAO we have a 
multidisciplinary workforce, as you know. We put a lot of 
effort into making sure that we have the right skills and types 
of people, both in technical disciplines and subject areas. To 
work on this, we provide support in making sure that they keep 
their training up to date so that we are using the most state-
of-the-art methodologies and technologies. And we also put a 
big investment on working with our employees.
    As you know, and as you have commented in the past, we are 
rated as one of the best places to work in the Federal 
Government. We are very proud of that record. We work hard with 
our employees and with our union to have good, constructive 
ongoing relationships. We value that, and we are making good 
progress in that regard.
    Last, as the auditor of the consolidated financial 
statements of the Federal Government, I am acutely aware of the 
fiscal stress that our Government is under. And as we have said 
for a number of years, it is on an unsustainable long-term 
path. But I also recognize that during these times of making 
decisions on where to cut and how to allocate resources, that 
GAO's services are even that much more important to the 
Congress in order to help it make the best decisions possible 
to eliminate waste, to deal with a variety of issues, and to 
make cuts without having unintended negative consequences on 
the citizens.

                           PREPARED STATEMENT

    And so, therefore, we put forth what we believe to be a 
prudent, modest request. We have tried to gain as many 
efficiencies as possible, and we believe, with the request that 
we have put forward, that we can meet the highest-priority 
needs of the committees across the Congress.
    I know this subcommittee will give careful consideration, 
as you have in the past, to our request, and I look forward to 
answering your questions.
    [The statement follows:]

                  Prepared Statement of Gene L. Dodaro

    Mr. Chairman, Ranking Member Hoeven, and members of the 
subcommittee: I appreciate the opportunity to be here today to discuss 
the Government Accountability Office's (GAO) budget request for fiscal 
year 2012. I want to thank the subcommittee for its continued support 
of the GAO. We very much appreciate the confidence you have shown in 
our efforts to help support the Congress in carrying out its 
constitutional responsibilities and to help improve Government 
performance and accountability for the benefit of the American people.
    With this subcommittee's support, in fiscal year 2010, the GAO 
provided assistance to every standing congressional committee and 70 
percent of their subcommittees. Our work yielded significant results 
across the Government, including financial benefits of $49.9 billion--a 
return on investment of $87 for every $1 invested in the GAO. In 
addition, we documented more than 1,300 other benefits resulting from 
our work that helped improve services to the public, promote improved 
management throughout Government and change laws, such as the Improper 
Payments Elimination and Recovery Act of 2010.\1\
---------------------------------------------------------------------------
    \1\ GAO-11-2SP, United States Government Accountability Office 
Performance and Accountability Report Fiscal Year 2010 and GAO-11-3SP, 
Summary of GAO's Performance and Financial Information Fiscal Year 
2010.
---------------------------------------------------------------------------
    Recently, we issued two major reports that underscore the GAO's 
continuing value in helping the Congress and the administration reduce 
costs and improve Government, particularly in a time of reduced 
resources.
  --First, just last week on March 1, 2011, we detailed 81 
        opportunities to reduce duplication, overlap, or 
        fragmentation.\2\ These opportunities span a range of Federal 
        Government mission areas such as agriculture, defense, economic 
        development, energy, general government, health, homeland 
        security, international affairs, and social services. Within 
        and across these missions, our report touches on hundreds of 
        Federal programs, affecting virtually all major Federal 
        departments and agencies. By reducing or eliminating 
        unnecessary duplication, overlap, or fragmentation and by 
        addressing the other cost-saving and revenue-enhancing 
        opportunities contained in the report, the Federal Government 
        could save tens of billions of tax dollars annually and help 
        agencies provide more efficient and effective services.
---------------------------------------------------------------------------
    \2\ GAO-11-318SP, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars and Enhance Revenue.
---------------------------------------------------------------------------
  --Second, our high-risk update issued on February 17, 2011, 
        identified 30 Federal areas and programs at risk of fraud, 
        waste, abuse, and mismanagement, and those in need of broad-
        based transformation. Solutions to high-risk problems offer the 
        potential to save billions of dollars, dramatically improve 
        service to the public, and strengthen confidence and trust in 
        the performance and accountability of the U.S. Government.\3\
---------------------------------------------------------------------------
    \3\ Our 2011 High-Risk List is included in Appendix I.
---------------------------------------------------------------------------
    Looking ahead to fiscal year 2012, the GAO is acutely aware of our 
dual responsibilities in a time of fiscal austerity. First, the 
Congress has rightly come to rely upon the GAO to help identify 
billions of dollars in cost-saving opportunities to tighten Federal 
budgets or to point out revenue enhancement opportunities. We know our 
mission becomes ever more critical when the Nation faces difficult 
financial times. But second, the GAO must also ensure it meets this 
responsibility while implementing all possible cost savings in its own 
operations without diminishing our traditionally high-quality work that 
lays the foundation for critical decisionmaking and oversight by the 
Congress.
    Accordingly, we are seeking only to maintain our fiscal year 2010 
funding level of $556.8 million in fiscal year 2012 and plan to 
maintain our current authorized staffing levels. While operating at 
this funding level with no increase poses challenges, the GAO is 
committed to reducing our own costs as much as possible in order to 
absorb the additional demands and increasing costs of the coming year 
without additional resources. Our budget request attempts to balance 
tradeoffs and assumes that we will be able to manage at reduced funding 
levels, and try to maintain our staffing levels to provide insightful 
analyses on the most important priorities for congressional oversight 
and decisionmaking.
    However, if the GAO's funding is reduced below the requested level, 
more drastic measures would be needed, such as reductions in our staff 
capacity, which would result in increased delays in responding to 
congressional requests, limit our ability to provide timely responses 
to support congressional oversight, and reduce the number of requests 
that we could complete.

 <GREEK-L>GAO DEG.THE GAO'S EFFORTS HELP THE CONGRESS ADDRESS DOMESTIC 
                      AND INTERNATIONAL CHALLENGES

    The GAO stands ready to serve the Congress and the American people 
at this historically critical juncture and is uniquely positioned to 
help address our Nation's challenges and identify opportunities. 
Pressures to reduce the Federal deficit following an economic recovery 
will mean a greater need for analyses of programs and their 
effectiveness, as well as a reduction in improper Federal payments and 
closing the gap between taxes owed and paid.
    Congressional demand for GAO services remains high as evidenced by 
our workload. We expect that trend to continue as a result of the 
pressures on Federal finances and our economy. For example, we will be 
working to produce future annual reports outlining duplication, 
overlap, and fragmentation as well as opportunities to reduce costs and 
enhance revenue. Additionally, the Wall Street Reform Act contained 44 
new statutory requirements or authorities for GAO assistance, including 
audits related to the Federal Reserve.
    Our past performance is evidence of the critical role our dedicated 
staff play in helping the Congress and the American people better 
understand issues, both as they arise and over the long term. For 
example, in fiscal year 2010, the GAO issue-area experts testified 192 
times before the Congress on a wide range of issues, ranging from air 
cargo, border and cyber security issues and the Department of Defense's 
planning for the drawdown of United States forces from Iraq to the 
Medicare prescription drug program, processing of disability claims and 
funding for broad band services.\4\
---------------------------------------------------------------------------
    \4\ A list of selected issues on which GAO staff testified before 
the Congress during fiscal year 2010 is included as Appendix II.
---------------------------------------------------------------------------
    The GAO's strategic plan for serving the Congress and the Nation, 
highlights the broad scope of our efforts to help the Congress respond 
to domestic and international challenges, such as:
  --threats confronting U.S. national security interests;
  --fiscal sustainability and debt challenges;
  --economic recovery and restored job growth; and
  --advances in science, technology, engineering, and mathematics.
    The GAO seeks not only to help position the Government to better 
manage risks that could compromise the Nation's security, health, and 
solvency, but also to identify opportunities for managing Government 
resources wisely for a more sustainable future.
    Our strategic plan covers the following goals and objectives:
    Goal 1.--Help the Congress address current and emerging challenges 
to the well-being and financial security of the American people.
  --Financing and programs to serve the health needs of an aging and 
        diverse population;
  --Lifelong learning to enhance U.S. competitiveness;
  --Benefits and protections for workers, families, and children;
  --Financial security for an aging population;
  --A responsive, fair, and effective system of justice;
  --Viable communities;
  --A stable financial system and consumer protection;
  --Responsible stewardship of natural resources and the environment; 
        and
  --A viable, efficient, safe, and accessible national infrastructure.
    Goal 2.--Help the Congress respond to changing security threats and 
the challenges of global interdependence.
  --Protect and secure the homeland from threats and disasters;
  --Ensure military capabilities and readiness;
  --Advance and protect U.S. foreign policy interests; and
  --Respond to the impact of global market forces on U.S. economic and 
        security interests.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Analyze the Government's fiscal position and opportunities to 
        strengthen approaches to address the current and projected 
        fiscal gap;
  --Identify fraud, waste, and abuse; and
  --Support congressional oversight of major management challenges and 
        program risks.
    Our strategic plan framework is included in Appendix IV.

      <greek-l>GAO DEG.CONSTRAINED FISCAL YEAR 2012 BUDGET REQUEST

    Our requested funding level of $556.8 million will allow us to try 
to support a staffing level of 3,220 FTEs to provide insightful 
analysis on the most important priorities for congressional oversight 
and decisionmaking. We will continue to outreach to the Congress to 
understand and set priorities to ensure that we focus on the most 
important issues for congressional oversight.
    Although operating under a flat budget for 3 years provides 
significant operational challenges, we have carefully considered our 
resource requirements and made tradeoffs to ensure that we try to 
maintain our staff capacity within our current funding level to allow 
us to provide the Congress with high-quality, timely, and objective 
analyses of Government programs, operations, and finances--information 
that the Congress needs to make policy choices, ensure transparency and 
accountability, and protect the taxpayer.
    However, since 80 percent of our budget covers staff compensation 
and benefits, our flexibility to control costs without diminishing our 
staff capacity is limited. Without additional funding in fiscal year 
2013 and beyond, we would need to reduce our staff capacity which would 
increase the delay in starting work on congressional requests, limit 
our ability to provide timely responses and analyses to support 
congressional oversight, and reduce the number of requests that we 
could undertake.

    <greek-l>GAO DEG.THE GAO MAINTAINS EFFECTIVE WORKFORCE RELATIONS

    We could not have achieved our level of performance without the 
hard work and dedication of our professional, diverse, and 
multidisciplinary staff. Recognizing that the GAO's accomplishments are 
a direct result of our dedicated workforce, we continuously strive to 
maintain a work environment that promotes employee well-being and 
productivity. We are also proud of the results from our 2010 annual 
employee feedback survey, which indicate that employee satisfaction 
continues to increase and that we continue to make progress toward our 
goal to create a more inclusive work environment. In 2010, the GAO was 
once again rated second on the list of the ``Best Places to Work'' in 
the Federal Government by the Partnership for Public Service.
    The GAO regularly seeks and values the input we receive from our 
employee organizations. Recently, we reached tentative agreement with 
the GAO's Employees Organization--International Federation of 
Professional & Technical Engineers, Local 1921--on a master contract 
that has since been ratified by its members and is pending legal 
review. We are also working with our Employee Advisory Council and the 
Diversity Advisory Council on a range of issues.

                           CONCLUDING REMARKS

    I believe that you will find our prudent budget request is fiscally 
responsible and essential to ensure that we can maintain our capacity 
to assist the Congress in this challenging period in our Nation's 
history.
    We have a proven track record of helping the Congress evaluate 
critical issues of national importance and improving the transparency 
and accountability of our national government. Our new strategic plan 
for serving the Congress through fiscal year 2015 provides the 
framework for reporting on progress toward our institutional goals.
    We remain committed to providing accurate, objective, nonpartisan, 
and constructive information to the Congress to help it conduct 
effective oversight and fulfill its constitutional responsibilities. I 
appreciate, as always, your careful consideration of our submission and 
look forward to discussing our proposal with you.
    Mr. Chairman, Ranking Member Hoeven, members of the subcommittee, 
this concludes my prepared statement. I would be pleased to respond to 
any questions that you or other members of the subcommittee might have.

      <greek-l>GAO DEG.APPENDIX I.--THE GAO'S 2011 HIGH-RISK LIST

    Strengthening the foundation for efficiency and effectiveness:
  --Management of Federal oil and gas resources (new);
  --Modernizing the outdated U.S. financial regulatory system;
  --Restructuring the U.S. Postal Service to achieve sustainable 
        financial viability;
  --Funding the Nation's surface transportation system;
  --Strategic human capital management; and
  --Managing Federal real property.
    Transforming the Department of Defense (DOD) program management:
  --DOD approach to business transformation;
  --DOD business systems modernization;
  --DOD support infrastructure management;
  --DOD financial management;
  --DOD supply chain management; and
  --DOD weapon systems acquisition.
    Ensuring public safety and security:
  --Implementing and transforming the Department of Homeland Security 
        (DHS);
  --Establishing effective mechanisms for sharing and managing 
        terrorism-related information to protect the homeland;
  --Protecting the Federal Government's information systems and the 
        Nation's critical cyber infrastructures;
  --Ensuring the effective protection of technologies critical to U.S. 
        national security interests;
  --Revamping Federal oversight of food safety;
  --Protecting public health through enhanced oversight of medical 
        products; and
  --Transforming the Environmental Protection Agency's (EPA) process 
        for assessing and controlling toxic chemicals.
    Managing Federal contracting more effectively:
  --DOD contract management;
  --the Department of Energy's (DOE) contract management for the 
        National Nuclear Security Administration and Office of 
        Environmental Management;
  --NASA acquisition management; and
  --Management of interagency contracting.
    Assessing the efficiency and effectiveness of tax law 
administration:
  --Enforcement of tax laws; and
  --Internal Revenue Service (IRS) business systems modernization.
    Modernizing and safeguarding insurance and benefit programs:
  --Improving and modernizing Federal disability programs;
  --Pension Benefit Guaranty Corporation insurance programs;
  --Medicare program;
  --Medicaid program; and
  --National flood insurance program.

 <greek-l>GAO DEG.APPENDIX II.--SELECTED TESTIMONY TOPICS: FISCAL YEAR 
                                  2010

    Goal 1.--Address current and emerging challenges to the well-being 
and financial security of the American people.
  --Unemployment insurance trust funds;
  --Social Security disability;
  --Underfunded pension plans;
  --Proprietary schools;
  --Medicare high-cost drugs;
  --Toxic substance abuses disease registry;
  --Concussions in high school athletes;
  --Children's access to Medicaid dental services;
  --Corporate crime;
  --the Department of Justice's Civil Rights Division enforcement 
        efforts;
  --Community emergency preparedness;
  --Fannie Mae and Freddie Mac;
  --Department of the Interior's oversight of oil and gas;
  --Clean Water Act enforcement efforts;
  --U.S. Postal Service financial viability;
  --Federal facilities security;
  --High-speed rail projects; and
  --Commercial aviation consumer fees.
    Goal 2.--Respond to changing security interdependence threats and 
the challenges of global independence.
  --Financial markets regulation;
  --National flood insurance program;
  --Climate change;
  --Alien smuggling along Southwest Border;
  --Aviation security advanced imaging technology;
  --Terrorist watchlist screening;
  --Combating nuclear smuggling;
  --Iran sanctions;
  --Counternarcotics and anticrime efforts in Mexico;
  --Global food security;
  --Intellectual property enforcement efforts;
  --Afghanistan security force capacity;
  --DOD military and civilian employee compensation;
  --Warfighter contract support; and
  --Joint Strike Fighter challenges.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Defense space acquisitions;
  --Military language skills;
  --Interagency collaboration for national security interagency 
        contracting strategies;
  --NASA management and program challenges;
  --Balancing the Government-to-contractor workforce;
  --Iraq and Afghanistan contract and grant management;
  --American Recovery and Reinvestment Act (ARRA) oversight;
  --First-time homebuyer tax credit;
  --Equal employment opportunity at DHS;
  --2010 Census management challenges;
  --U.S. Government financial statements;
  --DHS financial management systems consolidation;
  --Protecting Federal information systems;
  --Environmental satellites;
  --Debt settlement risks to consumers;
  --Service-disabled, veteran-owned small business program fraud 
        prevention;
  --HEAD START Program fraud; and
  --Defense contract audit agency vulnerabilities.

<greek-l>GAO DEG.APPENDIX III.--HOW THE GAO ASSISTED THE NATION: FISCAL 
                               YEAR 2010

    Goal 1.--Address current and emerging challenges to the well-being 
and financial security of the American people.
  --Identified ways for the Department of Health and Human Services to 
        strengthen inspections of ambulatory surgical centers leading 
        to a fourfold increase in the proportion of centers found to 
        have deficient practices;
  --Appointed 49 experts and stakeholders to three organizations 
        created in new healthcare legislation;
  --Recommended food safety improvements that the Congress included in 
        legislation for the Department of Agriculture's school lunch 
        program;
  --Facilitated expedited claims process for the Department of Labor's 
        black lung benefits program;
  --Increased the EPA focus on environmental threats to children's 
        health;
  --Identified factors to consider in restructuring Fannie Mae and 
        Freddie Mac;
  --Proposed changes to improve control of toxic chemicals in consumer 
        products; and
  --Identified hidden fees for air travel that should be disclosed to 
        consumers.
    Goal 2.--Respond to changing security threats and the challenges of 
global interdependence.
  --Led the Federal Emergency Management Agency (FEMA) to begin 
        developing a strategic plan to improve the national public 
        alert and warning system;
  --Exposed weaknesses in the Transportation Security Administration's 
        behavior-based identification of high-risk air passengers;
  --Recommended changes that FEMA implemented to better plan for 
        national emergency response capabilities;
  --Informed the DHS's top-level review of weaknesses and risks in the 
        multibillion dollar Secure Border Initiative;
  --Contributed to a more robust missile defense acquisition policy;
  --Encouraged reforms in the United Nations' procurement, internal 
        oversight, and employment processes;
  --Provided insight to the Congress that led to expanding United 
        States sanctions against Iran; and
  --Informed development of a framework to reform the U.S. export 
        control system.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Informed the IRS' decision to extend regulation of paid tax 
        preparers, including requiring them to obtain an identifying 
        number and be tested for competency;
  --Exposed ENERGY STAR as a self-certification program by obtaining 
        certification for bogus products which led the DOE and EPA to 
        adopt improvements in their approval process;
  --Led General Services Administration to strengthen requirements due 
        to improper spending on premium-class Government travel;
  --Surfaced weaknesses in the Department of Veterans Affairs 
        outpatient scheduling IT systems;
  --Developed a methodology adopted by the Congress to efficiently 
        target billions of dollars in Medicaid assistance through the 
        ARRA;
  --Assessed IT risks for the 2010 Census to ensure successful 
        execution; and
  --Profiled selected DHS investments in a 2-page format to provide the 
        Congress with a new, easy reference on acquisition oversight, 
        planning, and execution.
    Goal 4.--Maximize the value of the GAO by enabling quality, timely 
service to the Congress and being a leading practices Federal agency.
  --Implemented leading practices to attract a more diverse workforce 
        and foster an inclusive work environment;
  --Leveraged technology to facilitate business process improvements in 
        financial and administrative IT systems;
  --Improved access to our products with a new mobile Web site for 
        users of small screen devices and a new electronic product 
        format;
  --Collaborated with international accountability organizations to 
        enhance their audit guidelines by incorporating private sector 
        international auditing standards; and
  --Led development of a strategic plan for the international 
        accountability community.

<greek-l>GAO DEG.APPENDIX IV.--SERVING THE CONGRESS AND THE NATION: THE 
                     GAO'S STRATEGIC PLAN FRAMEWORK

    Mission.--The GAO exists to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the Federal Government for the benefit of 
the American people.
    Trends.--National security threats; fiscal sustainability 
challenges; economic recovery and growth; global interdependence; 
science and technology; networks and virtualization; shifting roles of 
Government; and demographic and societal change.

------------------------------------------------------------------------
                   Goals                             Objectives
------------------------------------------------------------------------
Provide timely, quality service to the
 Congress and the Federal Government:
    To address current and emerging         Healthcare needs; lifelong
     challenges to the well-being and        learning; benefits and
     financial security of the American      protections for workers,
     people related to                       families, and children;
                                             financial security;
                                             effective system of
                                             justice; viable
                                             communities; stable
                                             financial system and
                                             consumer protection;
                                             stewardship of natural
                                             resources and the
                                             environment; and
                                             infrastructure.
    Respond to changing security threats    Homeland security; military
     and the challenges of global            capabilities and readiness;
     interdependence involving               advancement of U.S.
                                             interests; and global
                                             market forces.
Help transform the Federal Government to    Government's fiscal position
 address national challenges by assessing.   and options for closing
                                             gap; Fraud, waste, and
                                             abuse; and major management
                                             challenges and program
                                             risks.
Maximize the value of the GAO by enabling   Efficiency, effectiveness,
 quality, timely service to the Congress     and quality; diverse and
 and being a leading practices Federal       inclusive work environment;
 agency in the areas of.                     professional networks and
                                             collaboration; and
                                             institutional stewardship
                                             and resource management.
------------------------------------------------------------------------

    Core Values.--Accountability, integrity, and reliability.

                   <greek-l>GAO DEG.THE GAO'S MISSION

    The GAO--the audit, evaluation, and investigative arm of the 
Congress--exists to support the Congress in meeting its constitutional 
responsibilities and to help improve the performance and accountability 
of the Federal Government for the American people. The GAO examines the 
use of public funds; evaluates Federal programs and policies; and 
provides analyses, recommendations, and other assistance to help the 
Congress make informed oversight, policy, and funding decisions. The 
GAO's commitment to good government is reflected in its core values of 
accountability, integrity, and reliability.

    Senator Nelson. I appreciate your opening statement, and 
your point is well-made.
    So, Mr. Boarman, we would appreciate your thoughts, too.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF WILLIAM J. BOARMAN, PUBLIC PRINTER
    Mr. Boarman. Thank you, Mr. Chairman.
    And it is an honor for me to be here today in my first time 
testifying before your subcommittee, and I will keep my 
statement brief. But there are some important points that I 
would like to make about the GPO and its accountability and 
what it does for the Congress.
    The GPO, of course, is responsible for the production and 
distribution of information products for all three branches of 
the Government. These include passports for the State 
Department and the official publications of the Congress, 
Federal agencies, and the courts. We provide products in both 
print and a variety of digital formats.
    We support open and transparent Government by providing 
online access to authenticated information at no charge through 
our Federal Digital System (FDSys). FDSys has more than 250,000 
Federal titles and more than 25 million documents downloaded 
every month.
    We also partner with more than 1,200 libraries nationwide, 
participating in the Federal Depository Library Program. The 
libraries work with us to provide free public access to 
Government information in print and in digital form.
    Following my appointment by the President in late December, 
I returned to the GPO, where I had worked as a practical 
printer more than 35 years ago. The GPO today is a much 
different agency than the one that I left.
    At that time, there were more than 8,000 employees. Now 
there are barely more than a quarter of that number, but we are 
responsible for a broad range of products and activities that 
could only have been dreamed of back then--online databases of 
official Federal documents, passports, and smart cards and 
electronic chips carrying biometric data, print products on 
sustainable recycled paper using vegetable oil inks, and a 
robust information technology (IT) enterprise architecture, and 
more.
    These operations are managed by a uniquely skilled, small, 
and dedicated staff. Their support for the Congress is 
exemplary. They work through the night--sometimes under 
extremely difficult workloads and conditions such as snowstorms 
that close the rest of the Government--to assemble the 
databases and publications you need to carry out your 
critically important work.
    Our present and future are being defined by digital 
technology. The Congressional Record, bills, reports, and 
hearings, and other documents are generated from digital 
databases the GPO creates in response to the information needs 
of the Congress. No other agency is equipped to carry out that 
mission.
    Let me repeat that. No other agency is equipped to carry 
out this mission.
    Our use of databases has cut the cost of congressional 
information products over the past generation by more than two-
thirds measured in constant dollars. Our databases are the 
foundation of our online dissemination capability, which has 
been in operation since 1994. The capability has expanded 
public access to Government information exponentially while 
reducing the cost of distributing print products.
    Our databases are also the platform for several key 
information systems serving the Congress today. They are used 
by the Library of Congress (LOC) to support the THOMAS system, 
as well as the legislative information systems the LOC makes 
available to the Senate and House offices.
    Creating these databases is the majority of the work funded 
by the congressional printing and binding appropriation. Even 
though the name on this account may be old-fashioned, it is the 
source of the financing for the digital information platform we 
have built and manage for the Congress. Because of the way it 
is structured, this appropriation can only be accessed when we 
actually print for the Congress.

            <greek-l>GPO deg.GPO'S SUPPORT FOR THE CONGRESS

    The GPO's support for the Congress is extensive. My guess 
is that our work is more closely integrated with your daily 
operations than any other congressional support agency, as 
important and as valuable as their work is. But it is provided 
quietly in the background, and it is often not immediately 
clear what we do, but we are working to educate Members of 
Congress and their staff of our essential services.
    Since taking office, I have met with Members, officials, 
and staff of the Senate and House to discuss how the GPO can 
best service their needs. We have also been working 
cooperatively with the Appropriations Committees. We have 
reduced spending within the GPO by cutting travel, outside 
hiring, and by other costs. We have cut $5.2 million from the 
2012 appropriations request originally submitted to Office of 
Management and Budget by my predecessor late last year.

                           PREPARED STATEMENT

    For the record, our request includes two one-time 
components--$1.4 million for printing-related items for the 
2013 Presidential Inauguration and another $1.4 million to fund 
a shortfall in congressional printing carried forward from 
fiscal year 2009. Without these, our request would be $1.8 
million under the level of funding provided to the GPO by the 
continuing resolution.
    Also, we have $2.5 million left over from fiscal year 2006 
that could be transferred to the revolving fund under current 
law. With the transfer, our overall request for new funding 
would be reduced by this amount, which would also bring us 
under the level provided by the continuing resolution.
    [The statement follows:]

                Prepared Statement of William J. Boarman

    Mr. Chairman, Senator Hoeven, and members of the Subcommittee on 
the Legislative Branch: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2012. Our request is for the congressional printing and 
binding appropriation and the salaries and expenses appropriation of 
the Superintendent of Documents, both of which are included in the 
annual legislative branch appropriations bill. These two accounts cover 
the GPO's provision of congressional information products and services 
as authorized by law and our provision of public access to 
congressional and other Government information products through 
statutorily established information dissemination programs under the 
Superintendent of Documents.
    All other the GPO functions and activities--including the 
production of U.S. passports for the State Department as well as secure 
credentials for congressional and agency use, the procurement of 
information products and services in partnership with the private 
sector, the sales of Government information products and services to 
the public, and related operations--are financed on a reimbursable 
basis through the GPO's business-like revolving fund, which is 
authorized through the annual legislative branch appropriations bill.

                          <greek-l>GPO DEG.GPO
Background
    With just 2,200 employees, the GPO is the Federal Government's 
primary centralized resource for producing, procuring, cataloging, 
indexing, authenticating, disseminating, and preserving the official 
information products of the U.S. Government in digital and tangible 
forms. The agency is responsible for the production and distribution of 
information products for all three branches of the Federal Government, 
including U.S. passports for the Department of State as well as the 
official publications of the Congress, the White House and other 
Federal agencies, and the courts.
    Along with sales of publications in digital and tangible formats to 
the public, the GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through its Federal Digital System (www.fdsys.gov), which has 
more than 250,000 Federal titles online and sees more than 25 million 
documents downloaded every month, and through partnerships with 
approximately 1,220 libraries nationwide participating in the Federal 
Depository Library Program. In addition to the GPO's Web site, 
www.gpo.gov, we communicate with the public routinely via Twitter 
twitter.com/USGPO, YouTube www.youtube.com/user/gpoprinter, and 
Facebook www.facebook.com/USGPO.
    We first opened our doors for business 150 years ago this month, on 
March 4, 1861, the same day Abraham Lincoln was inaugurated as our 16th 
President. Our mission can be traced to the requirement in Article I of 
the Constitution that each House shall keep a journal of its 
proceedings and from time to time publish the same. Senator Schumer put 
as statement in the Congressional Record recognizing the GPO's 
anniversary, which I'm pleased to attach to this statement.
    In our history we have produced every great American state paper--
and an uncounted number of other Government publications--since 
President Lincoln's time, including the Emancipation Proclamation. 
Social Security cards, Medicare and Medicaid information, Census forms, 
tax forms, citizenship forms, military histories ranging from the 
Official Records of the War of the Rebellion to the latest accounts of 
our forces in Iraq and Afghanistan, emergency documents like the ration 
cards and the ``Buy Bonds'' posters used during World War II, the 
Warren Commission Report on President Kennedy's assassination, the 
Watergate transcripts, the 9/11 Commission Report, Presidential 
Inaugural Addresses, Supreme Court opinions, and the great acts of the 
Congress that have shaped our society--all these as well as millions of 
other documents from the historic to the humble have been produced by 
the GPO on their way to use by the Congress, Federal agencies, and the 
American public.
    For the Secretary of the Senate, the Clerk of the House, and the 
committees of the Senate and House, we produce the documents and 
publications required by the legislative and oversight processes of the 
Congress, including the daily Congressional Record, bills, reports, 
legislative calendars, hearings, committee prints, and other documents, 
as well as stationery, franked envelopes, and other materials such as 
memorials and condolence books, programs and invitations, phone books, 
and the other products needed to conduct business of the Congress. We 
also detail expert staff to support the information product 
requirements of Senate and House committees and congressional offices 
such as the Senate Office of Legislative Counsel.
    The production of the Congressional Record alone is a remarkable 
job, averaging about 170 pages per issue, but ranging in size from a 
few pages to hundreds of pages per night depending on the amount of 
business transacted, all formatted, paginated, proofed, corrected, 
uploaded for online access, printed, and delivered overnight, every 
night the Congress is in session. The history of our Nation as revealed 
in the proceedings of the Congress is preserved for generations to come 
in the permanent edition of the Congressional Record and in the 
Congressional Serial Set, containing all the numbered reports and 
documents of each Congress and published continuously since 1817, both 
produced by the GPO.
    Since taking office in early January, I've met with the Secretary 
of the Senate and the Clerk of the House and various Members and staff, 
and have heard repeatedly about the utility of the products we provide 
for Members and staff in performing the work of their offices and their 
committees. Ensuring that utility--supporting the Congress in carrying 
out its constitutional legislative function--is our most important job. 
In addition, with the Library of Congress (LOC) and the National 
Archives, the work we perform is a basic part of governmental openness 
and transparency, and an integral part of the creation and preservation 
of the record of our Government for the American people.

The GPO and Digital Information Technologies
    As Archivist of the United States David Ferriero recently said, the 
GPO has not rested with drums of printer's ink and rolls of paper 
measured by the ton. Our present and future are clearly being defined 
by digital technology, and digital technology itself has radically 
changed the way printing is performed today. This is especially true 
where the information products used by the Senate and House of 
Representatives are concerned. The GPO's conversion to digital 
databases for the composition of congressional publications occurred 
more than a generation ago. Today the activities associated with 
creating congressional information databases comprise the majority of 
the work funded by our annual congressional printing and binding 
appropriation.
    In addition to using these databases to produce printed products as 
required by the Congress, we upload them to the Internet via our online 
information systems, known previously as GPO Access and today as the 
GPO's FDSys. Since we first went online with congressional information 
in 1994, these systems have provided the Congress and the public with 
the definitive source not only of legislative but executive and 
judicial information online.
    Our creation of digital databases of congressional information from 
which we can print and provide online public access has dramatically 
increasing productivity and dramatically reduced costs to the taxpayer. 
As our budget submission shows, our digital production systems have 
reduced the level of the congressional printing and binding 
appropriation by more than two-thirds in constant-dollar terms since 
1975 while expanding our information capabilities exponentially.
    The GPO's congressional database systems also form the basic 
building blocks of other information systems supporting the Congress. 
Our congressional information databases are provided directly to the 
LOC to support its THOMAS system as well as the legislative information 
systems the LOC makes available to Senate and House offices. The GPO 
and the LOC are also collaborating today on the digitization of 
previously printed documents, such as the Congressional Record and the 
Statutes at Large, to make them more broadly available to the Congress 
and the public, and we are jointly developing a new process for 
updating the digital edition of the Constitution Annotated.
    The GPO's digital systems also support other key Federal 
publications, including the U.S. budget and, most importantly, the 
Federal Register and associated products, which we also produce. 
Through the GPO's efforts, the online Federal Register is being made 
available in extensible markup language (XML) to support bulk data 
downloads via www.data.gov, and with the Office of the Federal Register 
we developed the online Federal Register 2.0, an innovative approach to 
making information on Federal regulations and related documents 
available to the public. Our advanced authentication systems, supported 
by public key infrastructure (PKI), are an essential component for 
assuring the digital security of congressional and agency documents.
    The other major products that the GPO produces are U.S. passports 
for the Department of State, the premier component of our secure and 
intelligent documents business unit. At one time no more than a 
conventionally printed document, passports today incorporate a chip and 
antenna array capable of carrying biometric identification data, which 
with other security features has transformed this document into the 
most secure identification credential obtainable. We have also 
developed a line of secure identification ``smart cards'' to support 
the credential requirements of the Department of Homeland Security for 
certain border crossing documents, and our secure credential unit has 
been certified as the only Government-to-Government provider of 
credentials meeting the requirements of Homeland Security Presidential 
Directive 12.

The GPO in Partnership With Industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the budget, and secure and intelligent documents, 
we produce virtually all other information product requirements via 
contract through a longstanding partnership with the private sector 
printing industry. In fact, our procurement operation handles 
approximately 75 percent of all work sent to the GPO for production, 
amounting to $450-$500 million annually. This system is one of the 
Government's longest running and most successful programs of utilizing 
the private sector, which is represented by more than 16,600 individual 
firms registered to do business with us, the vast majority of whom are 
small businesses averaging 20 employees per firm. Contracts are awarded 
on a purely competitive basis; there are no set-asides or preferences 
in contracting other than what is specified in law and regulation, 
including a requirement for the Buy American Act. This partnership 
provides great economic opportunity for the private sector.

The GPO and Open, Transparent Government
    Producing and distributing the official publications of our 
Government fulfills an informing role originally envisioned by the 
Founders, when James Madison said:

    ``A popular Government without popular information, or the means of 
acquiring it, is but a Prologue to a Farce or a Tragedy, or perhaps 
both. Knowledge will forever govern ignorance, and a people who mean to 
be their own Governors, must arm themselves with the power which 
knowledge gives.''

    A key mechanism for this purpose is the Federal Depository Library 
Program, which today serves millions of Americans through a network of 
some 1,220 public, academic, law, and other libraries located in 
virtually every Congressional District across the Nation. These 
libraries are critical links between ``We the People'' and the 
information provided by the Federal Government. The GPO provides the 
libraries with information products in online or tangible formats, and 
the libraries in turn make these available to the public at no charge 
and provide additional help and assistance to depository library users. 
One of the other programs we operate is in fulfillment of an 
international treaty. Under it, we distribute certain Federal 
publications to other governments abroad as designated by the LOC. In 
return, they send the LOC their official publications, which the LOC 
then makes available for the use of the Congress and the public. This 
helps maintain the universal nature of the LOC's collections, as 
Librarian of Congress James Billington recently pointed out.
    Along with these programs, we also provide public access to the 
wealth of official Federal information through public sales featuring 
secure ordering through an online bookstore for the GPO sales 
publications and a partnership with the private sector to offer Federal 
publications as e-Books, and we operate effective and efficient 
information distribution programs for other Federal agencies on a 
reimbursable basis, including the General Services Administration's 
Consumer Information Center publications.

Recent Actions
    Since taking office on January 3 this year, my management team and 
I have worked to reduce spending and ensure that the GPO's finances 
remain sound in the face of ongoing constraints on the Federal budget. 
We have reduced our appropriations request for fiscal year 2012 by more 
than $5 million from what was originally submitted to Office of 
Management and Budget (OMB). We cut the GPO's annual spending plan as 
previously submitted to the Joint Committee on Printing by $15 million 
and implemented controls on hiring, travel, certain contractual 
services, and related discretionary accounts. We realigned the GPO's 
organization so the Chief Financial Officer reports directly to me 
rather than through subordinate officers, and implemented a task force 
on recovery of outstanding payments from Federal agencies. Otherwise, 
there is continuity of ongoing initiatives such as the development of 
FDSys, support for our Oracle suite of business enterprise services, 
and planning for continuity of operations (COOP). We are also pursuing 
additional revenue opportunities, particularly in the field of secure 
credentialing, as well as increased utilization of our printing 
procurement capability by Federal agencies.
    My meetings with the Secretary of the Senate and the Clerk of the 
House were to discuss how the GPO can best assist them in supporting 
the needs of the Congress. We have been meeting with both staff and 
Members of the appropriations committees and cooperating with them in 
their effort to provide for appropriations beyond the current 
continuing resolution. We fully understand the intention of the 
Congress to control its spending and you will have our cooperation in 
meeting this goal.
        <greek-l>gpo deg.fiscal year 2012 appropriations request
    For fiscal year 2012, we are requesting a total of $148,474,000, a 
reduction of $5.2 million, or 3.4 percent, from the amount submitted to 
the Office of Management and Budget late last year, and an increase of 
just $1,013,000 more than the continuing resolution (Public Law 111-
242, as amended).
    Our request includes two one-time components: $1.4 million for work 
supporting the 2013 Presidential Inauguration and $1.4 million to fund 
a shortfall in the congressional printing and binding appropriation 
carried forward from fiscal year 2009. Excluding these one-time 
requests, our overall request would be $145,674,000, a decrease of 
$1,787,000 from the current continuing resolution.
    There is an unexpended balance of $2.5 million in the salaries and 
expenses appropriation from fiscal year 2006 that could be transferred 
to the revolving fund under current law. If the transfer is approved by 
the Appropriations Committees, it would reduce our overall request for 
new funding to $145,974,000.
    Our funding request for fiscal year 2012 is designed to:
  --meet projected requirements for congressional information products 
        and services as authorized by law, provide the necessary funds 
        for materials required for the 2013 Presidential Inauguration, 
        and recover the shortfall in this account carried forward from 
        fiscal year 2009;
  --fund the operation of the GPO's statutory programs that provide 
        public access to congressional and other Government information 
        products nationwide; and
  --continue the development of the GPO's FDSys, which provides the 
        Congress, Federal agencies, and the public with no-fee digital 
        access to a vast range of congressional and other Federal 
        information products, and support our Oracle-based enterprise 
        infrastructure.

Congressional Printing and Binding Appropriation
    We are requesting $100,001,000 for this account to cover the 
estimated cost of congressional information products and services as 
authorized by law. This represents an increase of $6,233,000 more than 
the level provided by the current continuing resolution.
    Of the increase, $1.4 million is estimated to be required for work 
to support the 2013 Presidential Inaugural and $1,390,000 is required 
to fund the shortfall in this appropriation carried forward from fiscal 
year 2009. The balance of the increase, or $3,443,000, includes 
$2,909,000 for estimated volume increases in certain work categories--
principally the Congressional Record, business calendars, and 
hearings--offset by estimated volume decreases in other categories, 
primarily miscellaneous publications and bills. It also includes 
$534,000 for price level changes averaging 0.6 percent that are 
attributable to existing wage contracts and projected cost increases 
for materials and supplies.

Salaries and Expenses Appropriation of the Superintendent of Documents
    We are requesting $42,173,000 for this account to support public 
access to congressional and other Government information products 
through the GPO's statutory information dissemination programs, 
primarily the Federal Depository Library Program. Our request 
represents an increase of $1,262,000 more than the level approved in 
the current continuing resolution.
    Included in the increase is $196,000 for mandatory pay costs 
(pertaining only to within-grade increases) and price level changes, 
$262,000 for the level of the GPO overhead required to be distributed 
to salaries and expenses programs, and $304,000 for FDSys annual 
operating costs attributable to Superintendent of Documents programs. 
In addition, we are requesting $500,000 to continue legacy systems 
migration and modernization costs, as well as historical digitization 
projects approved by the Joint Committee on Printing and involving 
collaboration with the LOC.
    As noted above, there is an unexpended balance of $2.5 million in 
the salaries and expenses appropriation from fiscal year 2006 that 
could be transferred to the revolving fund under current law. If the 
transfer is approved by the Appropriations Committees, it would reduce 
our request for new funding to the salaries and expenses appropriation 
by that amount.

Revolving Fund
    We are requesting $6.3 million for this account, to remain 
available until expended, to fund essential investments in information 
technology development. These include $5 million to continue developing 
FDSys and $1.3 million for support for our Oracle-based enterprise 
infrastructure. The GPO has requested these funds as additions to the 
revolving fund's working capital to enable the fund to continue 
financing other investments in upgrades of technology, equipment, and 
plant modernization.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, this 
concludes my prepared statement. We look forward to working with you 
and the subcommittee in your consideration of our appropriations 
request for fiscal year 2012.
                                 ______
                                 

             [From the Congressional Record, March 4, 2011]

          150th Anniversary of the Government Printing Office
                    (By Senator Charles E. Schumer)

    Mr. SCHUMER. Mr. President, I rise today as the chairman of the 
Joint Committee on Printing to recognize the Government Printing 
Office, GPO, on the occasion of its 150th anniversary. GPO opened its 
doors on March 4, 1861, the same day that President Abraham Lincoln 
took the oath of office for his first term. Since that time, the agency 
has used constantly changing technologies to meet the needs of the 
Congress, Federal agencies, and the public. During GPO's early days, 
employees relied on ink and paper to publish the text of President 
Lincoln's Emancipation Proclamation. Today, as another President from 
Illinois leads the Nation, GPO employees are using the latest digital 
technology to document the activities and decisions of our Government 
and to fulfill GPO's founding mission, which is ``Keeping America 
Informed.''
    While GPO's past has been about printing, its present and future 
are being defined by electronic publishing. GPO has been investing for 
more than a generation in digital production and dissemination 
technology, an investment that has yielded significant improvements in 
productivity, capability, and savings for the taxpayers. The GPO 
estimates that converting to electronic, digital technology has 
resulted in a savings of 66 percent on the cost of congressional 
printing alone. Deploying such technology has also reduced the number 
of employees to fewer than at any time in the past century. And it has 
reduced dramatically the number of copies of official documents that 
are printed.
    GPO's partnership with the printing industry supports tens of 
thousands of jobs. At the same time, by using GPO as a central 
procurement agency, the Federal Government reduces substantially the 
cost of these contracts to the taxpayers.
    GPO now has a range of products and services that could only have 
been dreamed of 30 years ago: Online databases of Federal documents 
with state- of-the-art search and retrieval capabilities available to 
the public without charge, Government publications available as e-
Books, and a public presence not only on the Web but also on Twitter, 
Facebook, and You Tube. No longer is GPO primarily a publisher of 
printed government documents, but a fully integrated electronic 
publisher and clearinghouse whose products are available in many 
Internet-based locations. In addition, the State Department relies on 
GPO to provide highly secure U.S. passports containing sophisticated 
smart chips. GPO does this in conjunction with the private sector, 
which supplies certain critical components.
    Another key function of GPO is its partnership with more than 1,200 
Federal depository libraries across the country. These libraries, 
established by statute in all 50 States, make Federal documents 
available to millions of students, researchers, businesses, and others 
every year in both digital and print formats.
    In short, GPO is responsible for the production and distribution of 
information products and services for all three branches of the Federal 
Government, including U.S. passports for the Department of State as 
well as the official publications of the Congress, the White House, and 
other Federal agencies. In addition to publication sales, GPO offers 
permanent public access to Federal Government information at no charge 
through GPO's Federal Digital System--www.fdsys.gov--and through 
partnerships with approximately 1,200 libraries nationwide that are 
part of the Federal Depository Library Program.
    I ask my colleagues to join me in congratulating the GPO on its 
150th anniversary and on its contributions to keeping the public 
informed.

    Mr. Boarman. Mr. Chairman, thank you very, very much, and I 
will be happy to answer any questions that you have.
    Senator Nelson. Thank you.
    Dr. Elmendorf.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, Ph.D., DIRECTOR
    Dr. Elmendorf. Thank you, Mr. Chairman.
    I appreciate the opportunity to present the CBO's budget 
request for fiscal year 2012.
    As you know, the CBO's mission is to provide the Congress 
with objective, impartial analyses of budget and economic 
issues, including the information and cost estimates needed for 
the congressional budget process.
    There are about 250 people currently working at the CBO. In 
the coming year, we anticipate a workload of roughly 650 formal 
cost estimates. It is worth emphasizing that the formal 
estimates are just the tip of the iceberg because more and 
more, we are being asked for informal estimates or proposals at 
early stages of the legislative process. We will do, literally, 
thousands of those in the coming year.
    We also expect to release approximately 100 analytic 
reports and other publications, covering our budget and 
economic outlook, analysis of the President's budget, long-term 
budget projections, monthly budget reviews, and in-depth 
analyses of a broad range of policy issues, including 
healthcare delivery and financing, policies for increasing 
economic growth and employment, tax reform, and proposals to 
address the country's long-term budgetary imbalance.
    In fulfilling our mission, the CBO relies on a highly 
skilled workforce. Most of our analysts have advanced degrees 
and are in high demand outside the Government and in agencies 
in the executive branch. So we need to recruit them and retain 
them in a highly competitive job market.

                      <greek-l>CBO deg.CBO BUDGET

    As a result, about 90 percent of our budget represents 
compensation for the agency staff. About 5 percent is for IT 
equipment and services, and the remainder is for training, 
office supplies, and other items.
    Therefore, the contour of the CBO's budget is closely 
linked to the agency's staffing level. The staffing level is, 
in turn, closely linked to the output we can provide to the 
Congress.
    Of course, we do not expect and are not requesting to be 
spared from the budget stringency facing the rest of the 
Federal Government. Our proposed budget for fiscal year 2012, 
prepared a few months ago, is equal to the total resources that 
were provided to the agency 2 years earlier, in 2010. That 
represents a scaling back of the multiyear staffing plan that 
was the basis for our budget request last year.
    As you noted, Mr. Chairman, comparing our 2012 budget 
request with our 2010 resources is complicated by the fact that 
the agency received a 2009 supplemental appropriation, which 
was available for use in 2010 as well. And the figure I think 
you may have in front of you and is in the written testimony 
tries to summarize that situation.

                  <greek-l>CBO deg.SUPPLEMENTAL FUNDS

    A small amount of supplemental funds was used in 2009. Most 
was used in 2010. Indeed, the CBO's regular 2010 appropriation 
was reduced to take account of the availability of those 
supplemental funds.
    As a result, the CBO's overall resources received little 
net boost from the supplemental, and the 2010 regular 
appropriation was artificially low. The CBO's request for 2012, 
the far right bar in the picture, of $46.9 million equals our 
2010 appropriation of $45.2 million, plus the $1.7 million from 
the 2009 supplemental that was used in 2010.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              <greek-l>CBO deg.CURRENT FISCAL YEAR FUNDING

    But let me say just a few words about our funding in the 
current fiscal year. Like the rest of the Government, we have 
been operating under a continuing resolution so far. The 
funding for the CBO has been equal to the agency's regular 2010 
appropriation, as shown in the figure. But that represents an 
effective cut in resources relative to last year because only 
$45.2 million of last year's funding came from the regular 
appropriation, with the rest coming from the supplemental.
    As a result, if the CBO's funding for this fiscal year 
remained at the continuing resolution level, we would face a 
reduction of about 4 percent in our funds relative to last 
year. If our funding for this year is cut below the continuing 
resolution level, we would face, of course, a larger reduction 
relative to last year's resources. For example, if the CBO's 
funding was cut 5 percent below the continuing resolution 
level, we would face roughly a 9 percent cut from the funding 
provided for 2010.
    In recognition of the possibility of a cut relative to the 
continuing resolution level, we have stopped hiring, except for 
a small number of key management positions that have come open. 
We have delayed purchases of IT equipment and other things, 
purchases of data for our analysis, canceled our summer 
internship program on its paid basis, and cut back sharply on 
travel and training.
    Without new hiring, attrition will lead to a reduction in 
the size of the CBO staff. Still, because the continuing 
resolution level is already below last year's funding, a 
further significant cut relative to the continuing resolution 
level would probably require a more rapid decline in staffing 
than can be achieved through attrition alone.

                           PREPARED STATEMENT

    In closing, I want to thank the subcommittee for the 
support you provide to the CBO, enabling us to carry out our 
responsibilities to provide budgetary and economic information 
to the Congress.
    Thank you.
    [The statement follows:]

               Prepared Statement of Douglas W. Elmendorf

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to present the Congressional Budget 
Office's (CBO) budget request for fiscal year 2012.
    The CBO's mission is to provide the Congress with objective, 
impartial analyses of budget and economic issues, including the 
information and cost estimates needed for the Congressional budget 
process. In fulfilling that mission, the CBO depends on a highly 
skilled workforce. Roughly 90 percent of the CBO's budget represents 
compensation for the agency's staff, about 5 percent is for information 
technology (IT) equipment and services, and the remainder is for 
training, office supplies, and related items. Therefore, the contours 
of the CBO's budget and the agency's staffing level are closely linked.
    The CBO's proposed budget for fiscal year 2012--$46.9 million--is 
equal to the total resources that were available to the agency 2 years 
earlier, in 2010. This proposal incorporates a scaling back of the 
multiyear staffing plan that was the basis for the agency's 2011 budget 
request. Even with a reduction in proposed staffing, supporting the 
work of the agency in 2012 with the same resources provided in 2010 
would be possible only by significantly restraining salaries and 
spending on IT. Neither of those two actions can be sustained 
indefinitely without diminishing the support that the CBO provides to 
the Congress.
    Comparing the CBO's 2012 budget request with its 2010 resources is 
complicated by the fact that the agency received a 2009 supplemental 
appropriation, which was available for fiscal year 2010 as well. In 
fact, most of it was used in 2010, and the 2010 appropriation was 
reduced to take account of the availability of those supplemental 
funds. As a result, the CBO's overall resources received little net 
boost from the supplemental appropriation, and the 2010 appropriation 
was artificially low. The CBO's request for 2012 equals the agency's 
2010 appropriation of $45.2 million plus the $1.7 million from the 2009 
supplemental appropriation that was used in 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                <greek-l>CBO DEG.RECENT FUNDING HISTORY

    Between fiscal year 2001 and fiscal year 2008, the number of full-
time-equivalent positions (FTEs) at the CBO averaged 230, and the 
number varied little from year to year. In 2008, however, the CBO 
became concerned that it did not have sufficient resources to analyze 
policy changes regarding the delivery and financing of healthcare that 
were emerging as a critical issue in the Congress. In addition, the 
agency was delivering an increasing number of testimonies and formal 
cost estimates and engaging in a growing amount of informal 
communications with congressional staff on a wide range of topics, so 
shifting a significant number of positions from other areas in order to 
analyze healthcare proposals did not seem feasible.
    Accordingly, the CBO proposed to the Congress a multiyear plan to 
boost the size of the agency to 259 FTEs, an increase of a little more 
than 10 percent. The Congress approved the first leg of the proposed 
increase in the CBO's fiscal year 2009 budget, and the agency averaged 
242 FTEs that year. As expected, analyzing competing healthcare 
proposals absorbed a huge share of the CBO's resources. At the same 
time, the financial crisis led to a jump in the Federal Government's 
involvement in the financial sector (including the creation of the 
Troubled Asset Relief Program, the conservatorship of Fannie Mae and 
Freddie Mac, and expanded activities of the Federal Reserve and the 
Federal Deposit Insurance Corporation), which increased congressional 
demand for analyses, budget projections, and cost estimates in that 
area. Consequently, during the course of fiscal year 2009, the Congress 
approved a 2-year supplemental appropriation of $2 million, aimed 
particularly at enhancing the CBO's ability to analyze complex health 
proposals. Of that amount, the CBO used about $0.3 million during 
fiscal year 2009 and remaining $1.7 million in 2010.
    For fiscal year 2010, the Congress approved an appropriation of 
$45.2 million for the CBO. That amount was $1.2 million less than the 
agency's request for that year, reflecting the availability of funds 
from the 2009 supplemental appropriation. The total funding of $46.9 
million--$45.2 million from the regular appropriation and $1.7 million 
from the earlier supplemental appropriation--was intended to support an 
additional 12 FTEs ``to increase CBO's capacity to analyze healthcare 
policy, financial and housing markets, and other areas of high 
Congressional interest.'' Accordingly, the CBO averaged about 250 FTEs 
during fiscal year 2010.
    For fiscal year 2011, the CBO requested $47.3 million in funding to 
support 258 FTEs, which would have essentially completed the multiyear 
increase that the agency proposed 3 years ago. The enactment last year 
of significant healthcare legislation has made the CBO's regular budget 
projections and analyses of most healthcare proposals much more complex 
and labor-intensive than had previously been the case. Moreover, the 
demand for analysis of major new healthcare proposals has abated only a 
little. In addition, the depth and duration of the economic downturn, 
as well as the surge in Federal debt and projected deficits, have led 
the Congress to ask the CBO for more analyses on a range of economic 
and budgetary issues.
    Like the rest of the Federal Government, the CBO has been 
functioning under continuing resolutions so far in fiscal year 2011. 
The funding for the CBO has been equal to the agency's regular 2010 
appropriation--but that represents an effective cut in resources, 
because only $45.2 million of the CBO's $46.9 million in 2010 funding 
came from the regular appropriation. If the CBO's funding for 2011 
remained at that continuing resolution level, the agency would have 
about $1.7 million less to work with this year than in 2010--a 
reduction of about 4 percent.
    If the CBO's funding for 2011 was cut below the continuing 
resolution level, the agency would face a larger reduction relative to 
its 2010 resources. For example, if the CBO's funding was cut 5 percent 
below the continuing resolution level, the agency would face roughly a 
9 percent total cut from the funding provided for 2010. In recognition 
of the possibility of a cut relative to the continuing resolution 
level, the CBO has stopped hiring (except for a small number of key 
management positions that have come open), is delaying purchases of IT 
equipment and other things, has canceled its paid summer internship 
program, and has cut back sharply on travel and training. Without new 
hiring, attrition will lead to a reduction in the size of the CBO 
staff. Still, because the continuing resolution level is already below 
last year's funding, a further significant cut relative to the 
continuing resolution level would probably require a more rapid decline 
in staffing than could be achieved through attrition alone and 
therefore would probably require a reduction in force.

  <greek-l>CBO DEG.SOME DETAILS OF THE CBO'S FISCAL YEAR 2012 BUDGET 
                                REQUEST

    In fiscal year 2012, the CBO will continue to focus on its core 
functions of providing nonpartisan budgetary and economic information 
and analyses to the Congress, including budget and economic outlook 
reports, an analysis of the President's budget, long-term budgetary 
projections, cost estimates, mandate statements, and scorekeeping 
reports. In addition, the CBO will continue to prepare in-depth 
analyses of a broad range of program and policy issues, as requested by 
committees or Members. The specific issues that the Congress will be 
addressing in 2012 will, of course, depend on circumstances at the 
time, but the CBO's analyses are likely to include work on healthcare, 
policies for increasing economic growth and employment, energy policy, 
tax reform, immigration issues, infrastructure, defense policy, the 
Government's role in financial markets, and proposals to address the 
long-term budgetary imbalance. The agency will devote effort to further 
improving its long-term analyses of legislative proposals for 
healthcare, Social Security, and broad fiscal policy changes by 
continuing to develop its budgetary and economic models.
    The CBO anticipates a workload of roughly 650 formal cost estimates 
(most of which include both estimates of Federal costs of legislation 
and assessments of the cost of mandates in the legislation that would 
affect State, local, and tribal governments or the private sector) and 
thousands of informal estimates; approximately 100 analytical reports 
along with other publications; and a substantial schedule of 
congressional testimonies. The formal estimates are just the tip of the 
iceberg because, more and more, the CBO is being asked for informal 
estimates of the budgetary impact of proposals at early stages in the 
legislative process and of potential floor amendments.
    Recognizing the stringency of the Government's budget situation, 
the CBO proposes to cut short the planned multiyear increase in the CBO 
staff and to continue with the currently budgeted number of 254 FTEs 
for fiscal year 2012. In addition, consistent with the rest of the 
Federal Government, the CBO is not providing any across-the-board 
increase in salaries for employees in calendar years 2011 or 2012 and 
has reduced the size of performance-based pay raises.
    Specifically, the CBO's request supports the following:
  --$32.2 million for personnel compensation;
  --$10.4 million for personnel benefits; and
  --$4.3 million for services, equipment, training, and supplies.
    Funding at this level would enable the CBO to continue to provide 
the kinds and quantity of estimates and analyses that the agency has 
been producing for the Congress during the past 2 years.
    In closing, I would like to thank the subcommittee for the support 
it has provided the CBO, enabling the agency to carry out its 
responsibilities to provide budgetary and economic information to the 
Congress.

    Senator Nelson. Thank you.
    The votes were supposed to begin at 3 p.m. They have moved 
it up.
    But let me ask a couple of questions first before I go. Mr. 
Boarman, I heard from a colleague that we are now into 
paperless production of information. Therefore, we don't need a 
``printing office.'' Perhaps we ought to consider changing the 
name of your office to something ``communications'' or whatever 
it is to avoid having that happen because, obviously, it is not 
simply about printing. Certainly not just printing on paper, 
although obviously that is one of the major things that we 
have.
    Not everybody is IT trained or able to pull everything up. 
So we are still going to be stuck with paper in some areas. Can 
you tell me what percentage of your budget might be used in 
paper communication? Is that possible?
    Mr. Boarman. Well----
    Senator Nelson. Just a rough estimate.

                    <greek-l>GPO deg.PRINTING COSTS

    Mr. Boarman [continuing]. Yes. Using the Congressional 
Record as an example, about 70 percent of it is the IT side, or 
the pre-press. Getting it prepared, to putting it up online 
every night so that----
    Senator Nelson. You would have that expense anyway?
    Mr. Boarman. Exactly. And so, the 30 percent left for 
printing is the smallest piece of it because once the press 
starts to run, I mean, the first impression might cost you $250 
a page. After that, it is about a penny.
    I have met with a number of Members of Congress who have 
raised the very issue you did. Actually, I had a chairman of a 
committee say, you know, I have got a bunch of new Members who 
don't like Government, and they don't understand why we have 
printing. And when I explained to him, well, do they know that 
we have the digital platform, that we produce all of the 
information electronically every night, he said, ``No, they 
don't know that.''
    So we are going to try to educate Members so that they 
understand that the GPO is the only agency that provides the 
information so that you can go paperless. Now, if you decide to 
do that, I am sure there are going to be people printing copies 
out in their office. That is the thinking that is going on.
    And when you do that, it is nearly 7 cents a page to do it 
on your office printer. We can do it for 5.5 cents a page. And 
when a document gets above 64 pages, the cost per page drops to 
4 cents a page. And we print on both sides of the page. We 
print on recycled paper. We use vegetable oil-based ink, which 
is good for the environment and saves a lot of money.
    This is last night's Congressional Record. It is about a 
half an inch thick, printed on both sides. If you printed this 
out on an office printer, it would probably be this thick at 7 
cents a copy. And so, when I talk to Members and staffs, both 
in the House and Senate, they say we don't know how we could 
function without our Congressional Record.
    Let me just give you a couple of statistics. In 1994, we 
printed 20,000 copies of the Congressional Record every day. 
Today, we only print a little more than 3,700 a day. And of 
that, the House gets 950 copies, and the Senate gets 1,100, and 
the rest are distributed to depository libraries, the White 
House, and others. We get about 30 copies in our office for 
indexing.
    So we have dropped from 20,000 to 3,700 daily copies. And 
once the press starts to run, after we have done all of the 
infrastructure of building the platform to run it, it is very 
inexpensive to continue to print small quantities. I hope that 
answers your question.
    Senator Nelson. That does. And I think we need to get that 
information out.
    I will go vote and be right back.
    Thank you.
    We will continue.
    Your fiscal year 2012 budget request totals $148.5 million. 
It is $1 million above the 2010 enacted level, and is 
relatively flat. But you have a $1.4 million for the 
Presidential Inaugural. What is your timeframe for producing 
printed materials and credentials for the 2013 Presidential 
Inauguration?
    I know you can't start up the day of the Inauguration. But 
what kind of a timeframe are we looking at here? Is it within 
the parameter that some of this could be held off until the 
following year, or is it necessary to print documents well in 
advance, which would mean that it would be included in this 
budget?

                  <greek-l>GPO deg.INAUGURAL PRINTING

    Mr. Boarman. Well, historically, Mr. Chairman, I think that 
for each Inauguration, the money is asked for and appropriated 
in this particular cycle. And so, I am told that it needs to be 
in this budget.
    A lot of people don't understand that the Inauguration is a 
congressional event. They think of the parade and balls. But 
the Congress pays for the actual swearing-in ceremony, and I 
think this is a small portion of what you are actually going to 
lay out. But we do credentials. We do all the invitations and 
programs. We do all the tickets and signs for entry to the area 
for the Inauguration.
    And I think at some point, the Joint Congressional 
Committee on Inaugural Ceremonies will be coming together in 
fiscal year 2012, and they will be spending money. And so, my 
understanding is, that is why it is there.
    Senator Nelson. And I hope that in putting the preparations 
together, I know it is not all your responsibility to direct. 
You have got security issues. You have got other things.
    Mr. Boarman. Right.
    Senator Nelson. This is essentially the documentation or 
anything that is related to that?
    Mr. Boarman. Right. And of course, we did do credentials 
last time. We had probably the most secure credentials in the 
history of the Inauguration, the GPO did. But my understanding 
is the Capitol Police did pay for that, and so it came out of 
the legislative branch, but it was not out of the GPO's budget.
    Senator Nelson. When it comes to Capitol improvement costs 
that are being appropriated through the revolving fund, you 
request $6.3 million for two Capitol improvement projects: one, 
FDSys at $5 million and, two, the GPO Business Information 
System at $1.3 million.
    Why are these costs separated out for a specific 
appropriation rather than being factored into and charged to 
all agencies as part of the cost of doing business?

                   <greek-l>GPO deg.INVESTMENT FUNDS

    Mr. Boarman. Well, these are essentially additions to 
working capital for our revolving fund, which is where our 
monies for investment come from. And we do have money in that 
fund from other agencies. For instance, the State Department 
allocates money to our capital improvement fund, but it can 
only be used, obviously, for capital improvements for passport 
issues and State Department issues.
    This digital technology is so expensive. I had a meeting 
with Congresswoman Jo Ann Emerson from Missouri yesterday, and 
she is a member of the Legislative Branch Appropriations 
Subcommittee on the House side, and she also serves as chair of 
their Financial Services Subcommittee.
    And she was saying to me that the cost of this IT is just 
out of hand, and you have got to try to get a handle on it. The 
Congress has made a tremendous investment in the FDSys program. 
Probably from 1994 on, when GPO first went online, maybe $100 
million. In the last 5 years, maybe $40 million to get us to 
where we are.
    Now we have to maintain this platform as well as our Oracle 
system. We can't allow them to collapse. I am not an IT expert, 
but I have people that are, and they tell me in order for us to 
make sure that we can authenticate and do the other things that 
are necessary, this is what it is going to cost.
    Additionally, we are working in cooperation with the LOC, 
and they are helping us digitize a lot of the older documents. 
Everything from 1994 on, we have been able to digitize. But 
before that, it all has to be digitized.
    So these things are what the money is for, and in view of 
their importance to the Congress, I think it is appropriate 
that they are funded by appropriations to the revolving fund.
    Senator Nelson. Thank you.

   <greek-l>GAO deg.GAO RESOURCES USED TO OVERSEE THE TROUBLED ASSET 
                         RELIEF PROGRAM (TARP)

    Mr. Dodaro, your fiscal year 2012 budget request totals 
$556.8 million in appropriated funding, which is the same as 
the fiscal year 2010 level and totals the same level of 
staffing at 3,220 FTEs. Now, in your budget submission, we 
noted that you have an additional 25 FTEs that are reimbursed 
by the Department of the Treasury for TARP-related work.
    If you know, how much does the Department of the Treasury 
pay in reimbursement for those 25 FTEs? And perhaps, as well, 
how long will these 25 FTEs be dedicated to the TARP-related 
activities?
    Mr. Dodaro. As you will recall, when the TARP program was 
created in October 2008, it was outside of the normal 
appropriations cycle. So we never built funding for it into our 
appropriation.
    I am told here that it would be approximately $7.1 million 
in fiscal year 2011 for 30 FTEs and $5.2 million in fiscal year 
2012 for 25 FTEs that is reimbursed. Now the law requires that 
we provide reports every 60 days on the TARP program. Given the 
status of the program now, I am planning to seek legislative 
relief to provide less frequent reporting, which I think is 
appropriate given the status of the program.
    The Economic Stabilization Act requires us to audit TARP 
money until the last dollar is repaid. So we are in it for the 
long haul, until AIG and the automakers repay their loans. The 
home mortgage modification program is set to expire at the end 
of 2012, but for other entities that have to repay the money, 
it could take a significant amount of time.
    But we are hoping our costs go down, and we are also 
required to do an annual financial audit of the TARP funds, 
which we do.
    Senator Nelson. One would hope that when we are down to the 
last dollar, we wouldn't still have the need for 25 FTEs. So I 
am assuming there will be some point in time when the numbers 
become less significant and we might be able to find another 
way to do this, which wouldn't add to the total cost with a 
significant number of FTEs?
    Mr. Dodaro. I expect that figure to go down gradually as 
the money is repaid. And if I can get legislative relief from 
the 60-day reporting requirement, that would further reduce the 
costs.
    Senator Nelson. Well, keep us posted on how you are doing 
in terms of getting legislative relief because we certainly 
would be supportive of every effort to do that, recognizing 
that you are still going to have a need for a certain number. 
But hopefully, that would reduce the requirement.
    Mr. Dodaro. Yes, it would. I would note also in the Wall 
Street Reform Act that was passed last July, there were 44 new 
mandates for GAO work, and very few of those involved 
reimbursement.
    Senator Nelson. Expect that to happen in your spare time.
    Mr. Dodaro. Yes.
    Senator Nelson. Thank you.

      <greek-l>GAO deg.METHODOLOGY BEHIND GAO'S REPORT ON PROGRAM 
                       DUPLICATION--GAO-11-318SP

    We are looking at your March 1 report on redundancy in 
Government. I am going to pay close attention to it because I 
think it is important that if we are going to be cutting our 
budget we need to be aware of where there is redundancy and how 
we can root it out and save the taxpayers money. Because that 
is, at the end of the day, what we want.
    So you highlight this report. Can you tell us a little bit 
about your methodology and how you came about to actually 
producing this report? Did you consult with the CBO or the 
Office of Management and Budget (OMB)? At the end of the day we 
are all interested in the same thing, but maybe you can help me 
understand how the GAO went about doing this?
    Mr. Dodaro. We first did research on existing GAO studies 
where we had tackled this issue across the Federal Government. 
In fact, many of the items covered in the report we had already 
looked at as a result of requests from more than 60 percent of 
the committees in the Senate and in the House.
    We also looked at other reports--the CBO, the OMB, what was 
in the President's budget submission--as opportunities to 
reduce overlap and duplication. We did literature reviews on 
studies by think tanks and others to gather an inventory. We 
tapped into our institutional knowledge of the Government to do 
initial work going forward.
    The original concept was to cover the entire Federal 
Government over a 3-year period. This was our first 
installment. We are doing our planning activities right now for 
year 2 and year 3, and we are going to create a methodology to 
make sure that we cover all areas where there are potential for 
overlap and duplication.
    We also had extensive consultations with the Congress. 
While the legislation did not require us to report to specific 
committees, we focused on the Appropriation Committees, the 
Budget Committees, and our oversight committees in the 
Congress. We had extensive consultations with them to get their 
ideas and to discuss our work plans with them. I felt that we 
did a very thorough job.
    Now we also added to the report, beyond overlap, 
duplication, and fragmentation, other ideas we had about cost-
savings opportunities and revenue enhancements to help provide 
a fuller menu for the Congress to look at, because they all 
have the same objective--how to reduce cost, and enhance 
Government revenues. And so our recommendations were based upon 
previous GAO work that we updated for the report.
    And we are also planning in future reports, Mr. Chairman, 
to include a listing of what actions were taken as a result of 
the prior year's report so there is a clear scorecard going 
forward.
    Senator Nelson. You were anticipating where I was going 
perhaps because that was my next point. It would be helpful to 
develop a scorecard because I suspect that as you went back and 
looked at other reports, some of the things that were suggested 
in the past were still not done and questions still not 
answered.
    So it would be helpful to know, as things are considered 
and as we move forward, whether or not your recommendations are 
being considered. And I am sure some of them will be 
objectionable to some folks, but not all of them. So, 
hopefully, that scorecard would help us see how we are doing in 
rooting out the redundancies.
    Mr. Dodaro. Yes, we will definitely do that.
    Senator Nelson. Dr. Elmendorf, I know you are concerned 
about making certain that we get it right with respect to your 
budget. And so, we are focused on that. I think we internally 
understand the discrepancies between numbers and years.
    So I suspect that if we don't get it quite right, we would 
ask for a CBO study to help us get that in order.
    Dr. Elmendorf. We trust you entirely, Mr. Chairman.
    Senator Nelson. In 2012, we notice that you have increased 
funding for your staff levels by 6.6 percent above fiscal year 
2010 enacted level, and you proposed to reduce funding for IT 
infrastructure by $1.2 million, or 51 percent below fiscal year 
2010 enacted.

                     <greek-l>CBO deg.IT RESOURCES

    While other agencies are using technology to improve their 
efficiency, you are actually cutting your IT. And I am not 
opposed to cutting. My question is what IT projects are you 
cutting, and how are you finding some efficiencies there to be 
able to do that perhaps could be shared with others as well?
    Dr. Elmendorf. I think what you are seeing there, Mr. 
Chairman, is principally a cycle in the replacement of aging 
equipment. For a number of years coming up to now, we did not 
have sufficient funds to keep up with the pace of advancing 
technology. We were able to direct a piece of our appropriated 
funds in the past few years, though, to catching up in a way.
    That is very important. One of the simple uses that we put 
that supplemental appropriation to was buying faster computers 
that could--which we could use to run our complicated models of 
the health insurance system more rapidly. So we are very 
attentive to the need to maintain high-level technology to keep 
our productivity high.
    But having made that investment now in the past few years, 
we see less need for that in the coming year or two, and we 
don't want to just buy new computers because they are new and 
out there. So we have deliberately scaled back on that. As we 
say in the budget, that is not sustainable for the long run. 
There will come a need to do that replacement later.

                    <greek-l>CBO deg.STAFFING LEVEL

    But in order to maintain the staffing level, which we think 
we need to provide the service we provide to the Congress, in 
the face of a competitive labor market for the people that we 
are trying to attract and retain while keeping the overall 
funding level for the agency in 2012, as we proposed it the 
same as it was in 2010, requires us to spend somewhat more on 
those people. And we have been able to do that in our proposal 
by squeezing down on the money we spend in other areas.

                    <greek-l>CBO deg.COST ESTIMATES

    Senator Nelson. Now you are anticipating a request for 
roughly, 650 formal cost estimates in fiscal year 2010, in 
addition to the thousands of informal estimates, and 
approximately, 100 analytical reports. If you could, help me 
understand what does it cost for a typical CBO analysis?
    Let us first take the formal request and then perhaps the 
informal. Of the formal requests, do you have sort of a 
ballpark number of what the cost is internally?
    Dr. Elmendorf. No I don't. Partly because there is a 
tremendous variation in the complexity in the cost estimates.
    Senator Nelson. And there probably is no average, right?
    Dr. Elmendorf. I think that is right. I mean, we do a lot 
of estimates that are a page or two pages. A single analyst 
might spend a few days talking to the various Government 
agencies or people in the private sector or whatever is 
necessary to learn enough to do the estimate well. So that 
would be just one analyst for a few days.
    Then we do other estimates, for example, of healthcare 
reform, where we had dozens of people working for months. So it 
is just tremendous variation. We haven't tried to calculate an 
average. I am not sure it would be very helpful.
    Senator Nelson. And in addition to having your own internal 
costs, don't you engage specialists outside to come and help 
where perhaps you don't have that level of expertise or you are 
looking for a second approach?
    Dr. Elmendorf. Yes, we do exactly that. We reach out to a 
lot of people on the outside who will help us for free. We talk 
to analysts and universities and analysts in the private 
sector, many of whom will just talk with us because they 
recognize that it is an opportunity for them to be helpful in 
important work.
    But on the other hand, there are some services we do need 
to pay for. We have a contract with actuaries. And when we do 
our work on health insurance, when we first started doing work 
on financial issues, the CBO did not have a very deep bench in 
that area. And as the Government plunged in to more and more 
large financial transactions, we initially hired some of those 
services from the outside.
    As we gained the capacity and built the capacity internally 
to deal with that, we stopped those contracts. We think, in 
many cases, over time we can acquire the knowledge ourselves, 
and that is a little cheaper. But when it is necessary for us 
to learn from outside people, we don't want to pretend we have 
all the knowledge in-house because we don't.

                  <greek-l>CBO deg.REQUEST FOR STUDIES

    Senator Nelson. When you are requested for a study, I know 
you have to prioritize what you currently have versus what you 
are being asked to do. Can you give me some idea of how, I am 
not asking who you put highest in priority, but how you 
prioritize, in general, other than by who is asking?
    Dr. Elmendorf. Well, so the who is asking is part of it. 
The Congressional Budget Act that established the CBO set our 
priorities as working first for the Budget Committees, then for 
the Ways and Means and Finance and Appropriations Committees, 
then for other committees and Members, to the extent time 
allows. So that does matter.
    We also try to focus on the proposals that are receiving 
the most attention in the Congress. In order to be the most 
helpful to the most Members that we can, we direct more energy 
to proposals that are moving through the legislative process 
that seem to be headed for action by committees, votes on the 
floor of the Senate or the House.
    And we consult with the Budget Committees, with the other 
main committees I mentioned, with the leadership in the Senate 
and the House on a regular basis to try to be sure that we are 
working on the projects that are most helpful. It is often hard 
to be sure what will be helpful.
    One recent example, when the House was debating on the 
floor H.R. 1, the continuing resolution, they had an open 
amendment process. I think there were more than 600 amendments 
that were filed. We produced cost estimates of more than 300 of 
them in the space of a frantic week.
    We tried to do the ones that seemed to be attracting the 
most attention among House Members. I am sure we didn't get 
that exactly right. We did the very best that we could, but the 
limitation on resources, of course, affects the amount of the 
product that we can provide to the Congress.

                 <greek-l>CBO deg.ENTITLEMENT ANALYSES

    Senator Nelson. Well, assuming that the Congress gets 
totally serious about dealing with entitlements and chooses to 
do all the entitlements at the same time, will your staff, at 
the current level, be able to deal with the requests that are 
going to be very obvious, such as, the analyses that are going 
to be requested for Social Security, Medicare, and perhaps on 
some other areas as well, Medicaid?
    Dr. Elmendorf. We will do our absolute best to keep up with 
the Congress. It is challenging. In the space of the last month 
or two, as we have worked on our updated baseline estimates and 
analysis of the President's budget that we will be releasing 
tomorrow, actually, we have had to put aside work on a variety 
of proposals that various committees in the Senate and the 
House wanted very much for us to move ahead on, and we told 
them that we can't do that now.
    So we are always setting priorities. We have lost a number 
of health staffers who I think basically were worn out by the 
events of the past 2 years. We have been able to hire some 
replacements. But we have stopped hiring now, given the budget 
situation. So we are leaner than I would like us to be, and I 
am more worried about that.
    But you and your colleagues should have confidence that we 
will work desperately hard to provide you what we can, given 
the resources that remain available to us.

                  <greek-l>CBO deg.STAFFING AND HIRING

    Senator Nelson. And that you will be totally candid about 
what your needs are at that time. Either you are adequately 
staffed for the requests, or if you are not, what the delay 
would be or what the cost to meet those requirements might be.
    Dr. Elmendorf. We try to be straightforward about that. As 
you understand, part of the problem is that one can't create 
the capacity overnight. So, for example, in the economist job 
market, much of the hiring happens in the winter. We had lined 
up a number of promising candidates to work in key areas that 
we expect the Congress to be pressing us for analysis in.
    We did not make job offers to those people. We cut that 
process off in midstream because of the uncertainty about this 
year's budget and next year's budget. It is not easy to hire 
those people now, in a sense. We have, for a number of those 
people, we basically passed on this entire annual cycle, and 
our next chance to hire many of those people will be next 
winter.
    It is just a peculiarity of the way this particular job 
market works. Other areas, we can hire more readily throughout 
the year. But even then, people don't come in with all the 
expertise usually that we need. We hire people who are 
terrifically well-trained and have various different 
experiences, but not necessarily doing the precise sort of work 
that we do.
    So we can't really ramp up overnight. And that is part of 
what concerns me is, given the freeze that we have on hiring 
now, that we will end up with attrition in areas that may not 
be--well, there is no good place, but maybe in the areas that 
would be of particular interest to the Congress. And if we 
don't have the funds to replace those people, then I am worried 
that we will not be able to do as much as we otherwise would be 
able to do.
    Senator Nelson. Thank you.

        <greek-l>GAO deg.GAO BALANCES RESOURCES WITH PRIORITIES

    Mr. Dodaro, would that be true in your case as well with 
the accountability requirements that are constantly being asked 
from you?
    Mr. Dodaro. Definitely. Our highest priorities are 
statutory requirements, either in law, conference reports, or 
committee reports because they are an expression of a broader 
congressional interest. By law, we also have to respond to 
requests from chairs of committees where we have the competency 
to do so. We treat ranking members the same to maintain our 
nonpartisan status, and then requests from Members of Congress.
    We haven't been able to respond to a request from an 
individual Member of Congress for many years because of the 
workload demands. But when unusual circumstances come up, as in 
the case of the TARP program, I thought it was reasonable to 
ask the Congress to have that reimbursed since it was outside 
of the appropriations cycle.
    The American Recovery and Reinvestment Act was a similar 
situation. The Congress gave us one-time funds of $25 million 
to help as we deployed people across the country to track the 
money.
    So when unusual requirements arise, I am not bashful in 
asking the Congress for help. Our base appropriation, if our 
request is granted, would be enough, I believe, to work with 
the committees on their highest-priority needs as we know them 
now.
    Senator Nelson. Mr. Boarman, what about yours? Obviously, 
you are affected by things that go on in the Congress. If 
priorities change or suddenly there is a workload increase, you 
are affected by that as well. How does that impact you, your 
budget, and your thinking about the future?

                     <greek-l>GPO deg.GPO STAFFING

    Mr. Boarman. Well, when I came onboard, Mr. Chairman, we 
had around 2,300 FTEs, and we are down to nearly 2,200. And so, 
in anticipation of a flat budget or less, we haven't hired 
anybody.
    But I am concerned on the operations side of the house 
where all the work is done and where the chargeable hours are, 
we are very, very slim in staffing. And these are the people 
that mostly work on the nightshift that come in and respond to 
the overnight needs of the Congress, and we are down to almost 
800 people in that area.
    I mentioned earlier in my testimony, we had 8,000 people 
working there when I worked there back 35 years ago. And just 
in the division that I worked in, we had 1,600. Today, we have 
800 in all of these different divisions--bindery, press, 
prepress, IT. So, obviously, I am concerned.
    But we get it. We know there is an issue, there is a 
problem here, and we are going to try to do the best we can 
with less. I have cut out all travel except what is necessary, 
and any hires have to come to me and be approved because we 
have no idea what the Congress is going to do with the budget. 
But we hope they will recognize that we are a valuable, 
valuable partner, and we provide, like Dr. Elmendorf and Mr. 
Dodaro, we provide services that I don't think anybody else 
could do for the Congress.
    I don't think you could operate, open your doors every day 
without the services we do. And I just hope that the 
Appropriations Committee will keep that in mind because we do 
work hard for you.
    Senator Nelson. Well, I will ask all three of you, is there 
something I should have asked that I haven't.
    Dr. Elmendorf. Well, Mr. Chairman, as usual, your questions 
were right on point.
    Senator Nelson. Well, thank you.
    Dr. Elmendorf. I think, I guess, the final thing I would 
say is that I think we are already doing as much as we can with 
the resources that we are provided. We strive every day to work 
hard and give the Congress the best value that we can for the 
resources we were provided with.
    And if the Congress decides that it wants a smaller CBO, 
that is, of course, the prerogative of you and your colleagues. 
But I think that should be done with an understanding that it 
will reduce the output that we can give you. There will be 
fewer cost estimates. The analyses will be less fully worked 
out. It will take longer to get things done. And obviously, 
that is what happens when one has to make hard choices about 
where to use resources.
    But I think cutbacks should not be made with a sense that 
somehow we will do more with less.
    Senator Nelson. Yes.
    Dr. Elmendorf. We are doing all we can. And I think if we 
get less, then we will, unfortunately, do less.
    Senator Nelson. Mr. Boarman.

                 <greek-l>GPO deg.GPO ESTIMATES OF WORK

    Mr. Boarman. Mr. Chairman, I think your first question was 
certainly the most important, and I was happy to have a chance 
to get that on the record because I think it is important.
    But beyond that, I think that what would concern me is that 
if our appropriation was so low and the Congress continued to 
order printing beyond what we were appropriated, we would still 
have to do the work. And then we would be in what is called 
deficit spending, and that is something that the Congress is 
trying to get out of.
    In our appropriations, we are asking for some additional 
money because of our estimates. We estimate what we think you 
are going to do. And it is based on historical data. If it is a 
Presidential election year, usually the Congress is in less 
than they are in a non-Presidential election year. And so, we 
make our best guess, but we are not always right. And so, when 
we come up short, we ask that we be paid for the work that we 
did.
    And so, if we estimate that you are going to print 700 
reports, and then you print 850, which I think was the case in 
the previous year, we have to print it. The law requires us to 
do that, and you require us to do that.
    So that would be the one thing if you would ask me that, 
that I would say we will do it. But at some point, it would put 
GPO in a position where the comptroller or the chief financial 
officer, who is sitting behind me, would be tapping me on the 
shoulder, saying, ``You know, we have no money to pay anybody. 
So we have to shut down.''
    And that would be a terrible thing. So I just ask you to 
keep that in mind.
    Senator Nelson. Well, thank you. You gave me an idea.
    Mr. Boarman. I didn't intend to do that.
    Senator Nelson. No, no. It just struck me that if we are in 
session less, there would be less paper, less printing, less 
work.
    Mr. Boarman. Well----
    Senator Nelson. You have to share that with the majority 
leader. As a matter of fact, if people have wanted us to give 
them less Government, this would certainly be one way to do it.
    Mr. Boarman  [continuing]. For years, I think Public 
Printers have told the Congress if you want to reduce your 
printing budget, you have to talk a little bit less.
    Senator Nelson. Never happened.
    Mr. Boarman. But that has never happened. So I mean, it is 
not up to me to decide how late the Congress stays in session 
at night. We stay there. When we see the light on in the Dome, 
we know we have got to be there all night and late into the 
morning, and we do whatever we have to do to get the 
Congressional Record and the bills and the hearings and the 
calendars and the reports.
    I get a report on my BlackBerry every morning from Lyle 
Green, who is sitting behind me, who is our Congressional 
Publishing Director, telling me we are going to be on time with 
this and we are going to be on time with that. And I go, 
``Whew.'' Because it is so important that we do these.
    The Congress pays for it, and we want to be on time. And 
most of the times we are.

   <greek-l>GAO deg.GAO ASSISTANCE HELPS THE CONGRESS MAKE INFORMED 
                               DECISIONS

    Senator Nelson. And we appreciate that.
    Mr. Dodaro, anything that I haven't asked that I should 
have?
    Mr. Dodaro. At the risk of giving you another idea, I would 
venture two points. One, I certainly understand the desire of 
the Congress to lead by example in cutting their own 
operations. But I think that the magnitude of our problems and 
challenges on the fiscal front are so significant that the 
Congress also ought to be asking whether it has the proper 
information and resources to make informed, difficult choices 
in the years ahead?
    And certainly, cutting both congressional staff and the 
support office staffs is something that bears a lot of careful 
deliberation and that consequences because I think the country 
want the Congress to lead by example, but also to make really 
well-informed decisions in what is going to be a difficult 
period for everybody in the country until we can get on a more 
sustainable path.
    The second point that I would make would be that the extent 
to which we can have some sort of stability over a multiple-
year period would really help us properly plan ahead. It is 
something I really never wanted to become an expert at, but 
managing under continuing resolutions is not an easy process. 
While I recognize that this is a difficult issue to deal with, 
I think that sort of stability would be the other idea I would 
try to leave you with.
    Senator Nelson. Well, your point is well made. In the 
absence of predictability and stability, no one could run a 
business. And the absence of that in our case makes it very 
difficult to continue to function at the level we need to. My 
hope is that we just voted for the last short-term continuing 
resolution and that the next effort at the end of this 3-week 
period we will finish out the rest of the year and the 2012 
budget we are working on right now will be treated in the 
ordinary course of business by regular order.
    And I hope that it is where we will be able to function. It 
certainly is a time when we want business to invest here at 
home. A stable Government, predictable policy, and predictable 
regulatory responses are all essential to the decisions to 
invest here. And where investment occurs is where jobs will be 
created.
    So this is why it is essential that we get out of this rut 
that we are in and just kicking the can down the road, for 
whatever purpose.

<greek-l>GAO deg.<greek-l>GPO deg.<greek-l>CBO deg.ADDITIONAL COMMITTEE 

                               QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Gene L. Dodaro
               Questions Submitted by Senator John Hoeven

                    <greek-l>GAO DEG.GENERAL BUDGET

    Question. Considering that the Government Accountability Office 
(GAO) budget request of $556.8 million is equivalent to the fiscal year 
2010 enacted level and the current fiscal year 2011 continuing 
resolution, under which the agency has been operating for the last 5 
months, would you please tell the subcommittee what steps has GAO has 
already taken to reduce costs?
    Answer. GAO is committed to implementing cost savings and 
efficiencies without diminishing our traditionally high-quality work 
that lays the foundation for critical decisionmaking and oversight by 
the Congress. This will entail difficult tradeoffs as we face 
increasing workload demands while trying to support the staff capacity 
of 3,220 full-time equivalents we need to maintain our level of service 
to the Congress without additional resources.
    In fiscal year 2010, we reduced hiring in anticipation of limited 
funding in fiscal year 2011. In fiscal year 2011, we further reduced 
hiring and have begun implementing significant reductions across a 
broad range of programs to streamline our operations, reduce 
discretionary spending, reduce and defer investments, and leverage 
technology to help us achieve our mission more effectively and 
efficiently. These areas include:
  --limiting hiring to only replace critical staff losses;
  --reducing staff travel while leveraging other means of 
        communication, including teleconference and video-conference 
        capabilities, whenever practical;
  --limiting contracts related to congressional engagements to those 
        that obtain critical subject or technical expertise;
  --limiting external training opportunities to staff who represent the 
        GAO at professional forums or necessary to meet certain 
        professional certification requirements, such as State bar 
        requirements;
  --deferring some security clearance upgrades for employees and 
        contract staff;
  --reducing the cost of operating our facility, including energy 
        consumption;
  --reducing contract support in information technology and other 
        sensitive areas;
  --deferring technology enhancements which would improve staff 
        efficiency; and
    deferring investments in critical infrastructure programs to 
improve aging building systems.
    Question. What percentage of GAO's budget covers staffing? How will 
reduced funding in fiscal year 2011 and 2012 impact support of 
congressional requests?
    Answer. As a knowledge-based organization, about 80 percent of 
GAO's budget funds staff compensation and benefits with the balance of 
our budget funding mandatory operating expenses, such as operating 
costs for our headquarters and field facilities, security services, and 
other critical infrastructure services required for ongoing operations.
    While difficult, reducing our costs is necessary to fulfill our 
goal to balance efficiency and productivity in a tight budget 
environment. Despite the added challenges, at a fiscal year 2010 
funding level GAO will still be able to meet the highest-priority 
congressional needs in a timely manner. We will outreach to the 
Congress to understand and set priorities to ensure that we focus on 
the most important issues for congressional oversight. However, if GAO 
is funded below the requested fiscal year 2010 funding level, it would 
negatively impact our ability to provide timely GAO to the range of 
congressional requests and mandates, increase the length of time it 
takes us to staff requested assignments, diminish our capacity to 
conduct engagements, increase the number of pending requests, and 
adversely impact our ability to effectively assist the Congress in 
addressing the broad array of challenges facing the Nation.
    Question. How many legislative mandates requiring GAO to do work 
have been written into law in the past year and how many individual 
legislative requests have been sent directly to GAO? Is this an 
increase or decrease over the previous year?
    Answer. Over the last 4 years, the number of congressional requests 
and legislative mandates averages almost 1,100 annually. In fiscal year 
2010, GAO received 979 congressional requests, including 173 
legislative mandates and 806 requests from committees, subcommittees, 
and Members requesting GAO to do work. In fiscal year 2010, the number 
of new legislatively mandated studies increased by more than 30 percent 
more than the prior fiscal year.
    We have identified a number of legislative mandates that we believe 
need to be modified or repealed. For example, many of the mandates 
impose recurring reporting requirements on GAO. We are outreaching to 
the appropriate committees to discuss the potential for legislative 
relief from these mandates. Eliminating these mandates would conserve 
resources while preserving the option for congressional committees to 
request GAO work in areas covered by the specific mandates.

                  <greek-l>GAO DEG.DUPLICATION REPORT

    Question. How does the first annual GAO report on ``Opportunities 
to Reduce Potential Duplication in Government Programs, Save Tax 
Dollars, and Enhance Revenue''--the ``duplication report''--differ from 
the High-Risk Series that the GAO has issued on a biennial basis since 
1990? Is the new report a duplication of effort on the part of GAO?
    Answer. The two reports have very different purposes. The primary 
purpose of the ``duplication report'' is to identify Federal programs 
or functional areas where unnecessary duplication, overlap, or 
fragmentation exists, the actions needed to address such conditions, 
and the potential financial and other benefits of doing so. From our 
prior work, we also highlighted other areas of potential cost savings 
or enhanced revenues. In contrast, the biennial high-risk report 
identifies Government operations that are at high risk due to their 
greater vulnerabilities to fraud, waste, abuse, and mismanagement or 
the need for transformation to address economy, efficiency, or 
effectiveness challenges. There are a limited number of areas 
identified in both reports as an opportunity to reduce potential 
duplication and as a high risk based upon one body of work. An example 
is food safety oversight which is highly fragmented. In addition, the 
current system has caused inconsistent oversight, ineffective 
coordination, and inefficient use of resources.
    We prepared GAO's first annual report to the Congress in answer to 
a statutory requirement included in the public debt limit increase that 
GAO identify Federal programs, agencies, offices, and initiatives, 
either within Departments or Government-wide, which have duplicative 
goals or activities. The Congress asked GAO to conduct this work and to 
report annually on our findings. This work will inform Government 
policymakers as they address the rapidly building fiscal pressures 
facing our national government. GAO's most recent update of its annual 
simulations of the Federal Government's fiscal outlook underscores the 
need to address the long-term sustainability of the Federal 
Government's fiscal policies.
    In the report, we included 81 areas for consideration based on the 
GAO's prior and ongoing work. We presented 34 areas where agencies, 
offices, or initiatives have similar or overlapping objectives or 
provide similar services to the same populations; or where Government 
missions are fragmented across multiple agencies or programs. These 
areas span a range of Government missions:
  --agriculture;
  --defense;
  --economic development;
  --energy;
  --general government;
  --health;
  --homeland security;
  --international affairs; and
  --social services.
    Within and across these missions, this report touches on hundreds 
of Federal programs, affecting virtually all major Federal departments 
and agencies. Overlap and fragmentation among Government programs or 
activities can be harbingers of unnecessary duplication. Reducing or 
eliminating duplication, overlap, or fragmentation could potentially 
save billions of tax dollars annually and help agencies provide more 
efficient and effective services. The areas identified in the report 
are not intended to represent the full universe of duplication, 
overlap, or fragmentation within the Federal Government. We will 
continue to identify additional issues in future reports.
    Given today's fiscal environment, we also presented 47 additional 
areas--beyond those directly related to duplication, overlap, or 
fragmentation--describing other opportunities for agencies or the 
Congress to consider taking action that could either reduce the cost of 
Government operations or enhance revenue collections for the Treasury. 
These cost savings and revenue opportunities also span a wide range of 
Federal Government agencies and mission areas.
    In 1990, we began our high-risk program to highlight long-standing 
challenges facing the Federal Government. Historically, we designated 
high-risk areas based on their increased susceptibility to fraud, 
waste, abuse, and mismanagement. As the program has evolved, we have 
increasingly used the high-risk designation to draw attention to the 
need for broad-based transformation to achieve greater efficiency, 
effectiveness, accountability, and sustainability of key Government 
programs and operations. This effort, supported by the Senate Committee 
on Homeland Security and Governmental Affairs and the House Committee 
on Oversight and Government Reform, has brought much-needed focus to 
problems impeding effective Government and costing billions of dollars 
each year. To help improve these high-risk operations, GAO has made 
hundreds of recommendations and the administration and agencies have 
addressed, or are addressing, many of them and the Congress continues 
to take actions that are important to helping resolve high-risk issues.
    In the past two decades, attention to high-risk areas has brought 
results. More than one-third of the areas previously designated as high 
risk have been removed from the list because sufficient progress was 
made to address problems. Further, progress had been made in nearly all 
of the areas that remain on GAO's list as a result of congressional 
oversight and action, high-level administration attention, efforts of 
the responsible agencies, and support from GAO through our many 
recommendations and consistent follow-up on the implementation of 
recommended actions. In three areas--strategic human capital 
management, managing Federal real property, and Department of Defense 
support infrastructure management--progress has been sufficient for GAO 
to narrow the scope of the high-risk issue. However, additional 
progress is both possible and needed in all 30 high-risk areas to save 
billions of dollars more and further improve the performance of Federal 
programs and operations.
    Question. If the Congress and the executive branch have not had 
ample time to address the issues detailed in the first report, and 
policy and funding changes have not been fully implemented, is it 
reasonable to assume that GAO will be able to produce a valuable 
duplication report on an annual basis?
    Answer. Yes. The original concept was to cover the entire Federal 
Government over a 3-year period. We are currently planning activities 
for year 2 and year 3. We plan to create a methodology to ensure that 
we cover all areas where there is a potential for overlap and 
duplication. Also, future reports will include a listing of the actions 
taken as a result of the prior year's report and actions that remain 
open.
    Question. What are the costs to GAO for compiling each of these 
reports? If committees and Members of Congress are going to continue to 
ask GAO to produce these reports, and at the same time provide reduced 
funding for the agency, it would be helpful to know the general cost 
associated with producing a report so that we might re-evaluate and 
streamline our own requests.
    Answer. As a knowledge-based organization, GAO's most significant 
resource is its staff. As a result, GAO manages engagements based on 
the staffing resources needed to conduct the engagement rather than 
applying a dollar or budget figure to represent the engagement's cost. 
In addition, we allocate staff resources and measure our performance by 
strategic goal rather than by engagement, as described in our annual 
``Performance and Accountability Report''. It should be noted that the 
data GAO collects and analyzes when conducting its work is often used 
on multiple engagements and because there are so many engagements that 
share data, it would not be cost-effective--or perhaps even possible--
to accurately isolate the cost of any particular engagement.
    To produce these reports we draw upon an extensive body of work 
across GAO, including ongoing and previously completed work. The body 
of work used in this effort was performed for a wide variety of 
committees and subcommittees in both chambers, including more than 60 
percent of the committees in the House and more than 60 percent of the 
committees in the Senate. Our first report on overlap and duplication 
also included updates to prior GAO work and recommendations, and in 
some cases, required that we complete ongoing work or conduct new work 
to identify what additional actions agencies may need to take and the 
Congress may wish to consider, and considered the work of other 
agencies such as the Office of Management and Budget and the 
Congressional Budget Office.
    Question. What are the benefits to GAO of compiling these reports? 
What sort of return does GAO's work generate for the taxpayer?
    Answer. As a result of the information contained in the GAO's first 
annual report on duplication and overlap, the Federal Government has 
the opportunity to save tens of billions of tax dollars annually by 
reducing or eliminating unnecessary duplication, overlap, or 
fragmentation and by addressing the other cost-saving and revenue-
enhancing opportunities contained in the report.
    Solutions to high-risk problems offer the potential to save 
billions of dollars, dramatically improve service to the public, and 
strengthen confidence and trust in the performance and accountability 
of the U.S. Government. In fiscal year 2010, we issued 151 reports, 
delivered 67 testimonies to the Congress, and prepared several other 
products, such as briefings and presentations, related to our high-risk 
work. In addition, we documented nearly $27 billion in financial 
benefits and 522 nonfinancial benefits related to high-risk areas. 
These results are based on reviews spanning a wide range of issues such 
as implementing and transforming the Department of Homeland Security, 
revamping Federal oversight of food safety, executing the 2010 Census, 
and managing Federal real property.

                   <greek-l>GAO DEG.GAO FIELD OFFICES

    Question. When GAO's field offices were established in the 1950s, 
there may have been a real need for setting these up around the country 
because of the limited ability to travel, the costs associated with 
travel, and the inability to gather and share information as easily and 
quickly as we can now in this instant communication age. Is it still 
necessary for GAO to maintain 11 field offices?
    Answer. As telecommunications, transportation, and access to 
information has improved, GAO has reduced the number of field locations 
from 43 to 11. We believe 11 offices are needed at this time. We 
periodically assess our field structure and believe it is appropriate 
to maintain field office locations to do original data collection and 
provide first-hand information on Federal activities and expenditures 
around the country. This information is obtained through direct 
observation, interviews, inspections, and examination of activities 
where the action takes place and Federal funds are spent.
    GAO's strategic plan for 2010 to 2015 discusses challenges facing 
the Nation and issues we plan to address over the next 5 years. 
Together with its headquarters' office, the GAO's field structure 
provides excellent coverage of Federal expenditures on such areas as 
national defense operations; protecting the homeland by securing ports, 
borders, and critical assets; management of the Nation's natural 
resources; and hundreds of billions of dollars in Federal aid to States 
and localities through programs that provide medical assistance, 
education, child nutrition, income support, and highway investment. 
Illustrative examples follow:
  --Much of GAO's national security work is conducted at military 
        facilities, such as the Aeronautical Systems Center (Air Force 
        Materiel Command) at Wright-Patterson Air Force Base in Dayton, 
        Ohio, which manages most major Air Force aircraft programs. Our 
        Norfolk staff recently completed work at naval commands in 
        Virginia such as the Aegis Training Center in Dahlgren, 
        Virginia and the U.S. Fleet Forces Command in Norfolk, 
        Virginia. In addition, Redstone Arsenal in Huntsville, Alabama 
        is home to the Army Aviation and Missile Command, the Army 
        Aviation Research, Development, and Engineering Center, the 
        Missile Defense Agency, and NASA's Marshall Space Flight 
        Center, and minutes away from our Huntsville field office.
  --A majority of our Customs and Border Protection work is performed 
        in the field. For example, our Los Angeles office offers easy 
        access to the Ports of Los Angeles and Long Beach, the Nations' 
        top two ports. It also is proximate to the Mexican border, 
        where much enforcement and interdiction activity is focused.
  --A large portion of GAO's healthcare work is done in our field 
        office locations. For example, our Atlanta staff is currently 
        performing work at the Centers for Disease Control, 
        headquartered in Atlanta.
  --GAO field staff conduct critical work in our western field offices 
        that are proximate to numerous facilities where nuclear weapons 
        development, nuclear cleanup, and other activities are subject 
        to GAO reviews occur. Maintaining a core group of GAO staff at 
        these field offices that has the necessary security clearances 
        to access sites and that has knowledge of associated programs, 
        allows the agency to accomplish its work more efficiently and 
        help inform multiple engagements simultaneously.
  --Most of GAO's oil and gas development and other work on Federal 
        lands occurs in the Western States; having staff positioned in 
        Denver, San Francisco, and Seattle has allowed us easy access 
        to these areas and to Federal and State offices and officials 
        who manage these programs. Ongoing work on oil and gas 
        development in the Gulf of Mexico has also benefited from the 
        participation of GAO staff in Dallas.
    Moreover, the ability to draw and retain top talent in locations 
with less competition for that talent than in Washington, DC allows the 
GAO to maintain a highly skilled, diverse workforce that lives and 
works where the Congress' constituents live and work. This provides the 
GAO the opportunity to recruit from a large pool of academic 
institutions, bringing diverse perspectives to our work from many 
regions of the country.
    In addition, GAO field staff partner with their accountability 
professional colleagues through the intergovernmental audit forums 
across the country with State and local auditors. This allows GAO to 
develop local, State, and Federal geographically dispersed networks to 
share information and best practices from all levels of government. 
These relationships were extremely beneficial when conducting our 
American Recovery and Reinvestment Act work as we quickly deployed 
field staff to cover 16 States for a 2-year period. These already 
established networks provided quick access to the organizational 
entities we needed to engage and allowed strong collaboration across 
the multiple layers of government.
    Question. Would there be any savings realized by GAO if any, or 
all, of the field offices were eliminated? Or would eliminating the 
field offices increase the travel costs for employees?
    Answer. GAO has not done a recent analysis to determine what if any 
savings could be realized through closure of some or all of the field 
offices. In order to continue to provide the same level of service to 
the Congress in future years, GAO would need to maintain our staff 
capacity, which includes subject matter expertise housed in our field 
locations. Theoretically, we would continue to incur the same types of 
costs whether staff are located in the field or in headquarters and 
could potentially increase travel costs as a result of closing offices 
in close proximity to many sites that we visit to conduct our work.
    GAO periodically revisits our field structure, resulting in 
multiple realignments over the years, specifically undertaking a number 
of initiatives to realign our field structure in response to changing 
conditions and workloads. The overriding goal of these initiatives has 
been to realize long-term efficiencies in the way we do our work. Most 
recently, we have taken actions to maximize efficiencies and reduce the 
costs of travel to maintain our current field structure (e.g., 
increased videoconferencing capability, virtual meetings, Internet 
Protocol television (IPTV), document sharing through technology, 
centralized training hubs, and e-learning.) With these cost-saving 
initiatives, coupled with the mission-related benefits, we believe that 
the decision to maintain our field structure is well supported.
    Question. I understand that GAO has established a field presence in 
Iraq and is working with the State Department on similar activities in 
support of its work in Afghanistan and Pakistan. Why is it necessary 
for GAO to have a permanent presence in these countries? How many staff 
will be stationed in these locations? Does GAO receive any 
reimbursement from the State Department for these activities?
    Answer. We currently have three long-term temporary duty staff 
stationed in the International Zone in Baghdad, Iraq. We plan to 
continue this level of presence into fiscal year 2012. The staff work 
on multiple GAO engagements related to U.S. military and civilian 
activities and afford us a firm oversight presence in the country that 
has been supported by numerous Members of Congress. We believe it is 
critical to have a limited number of GAO staff on the ground in Iraq to 
effectively carry out GAO's mission and to serve the broad interests of 
the Congress. The State Department and the Chiefs of Mission have 
afforded GAO excellent support and cooperation in our efforts to access 
the necessary data, facilities, and representatives of the Government 
of Iraq and other program implementers in Iraq. Our presence in Iraq is 
further necessary to address recent congressional mandates to assess 
the campaign plan for Iraq, review the effect of drawing down resources 
in Iraq, and evaluate contracting activities there.
    We are currently planning on establishing a presence in Afghanistan 
to meet congressional mandates and interests in the region. As is the 
case in Iraq, we believe having staff on the ground will allow us to 
establish the relationships and have ready access to information and 
people to be more responsive to concerns raised by the Congress. As in 
Iraq, we have congressional mandates to assess United States progress 
toward achieving goals in the integrated civilian-military plan and to 
evaluate contracting activities in Afghanistan. Having a presence in 
Afghanistan will enable us to leverage multiple GAO engagements related 
to United States military operational activities, civilian agency 
programs, and contract oversight of billions of dollars invested in 
Afghanistan.
    In late 2009, we requested State Department support in establishing 
a five-person temporary duty presence in Kabul, Afghanistan. We are 
currently awaiting State Department's approval of our request.
    We continue to conduct engagements in Pakistan, but we have no 
plans to establish a long-term presence at this time.
    The GAO does not receive any reimbursement from the State 
Department for these activities.
                                 ______
                                 
               Questions Submitted to William J. Boarman
               Questions Submitted by Senator John Hoeven

          <greek-l>GPO DEG.CONGRESSIONAL PRINTING AND BINDING

    Question. Of the requested increase for congressional printing and 
binding, $1.39 million is required to reimburse the Government Printing 
Office (GPO) for services it provided to the Congress in fiscal year 
2009 beyond the funding that was appropriated for this account. Why was 
the estimated cost to cover congressional printing not sufficient to 
cover expenses in fiscal year 2009? Does a shortfall of this nature 
happen often?
    Answer. The estimated cost was not sufficient because the volume of 
printing required was underestimated. Based on past trends, GPO 
estimated that in fiscal year 2009, the volume of hearings would be 
about 263,000 pages and the volume of bills, resolutions, and 
amendments would be about 131,000 pages. The actual volumes were 
substantially higher, a total of 311,350 pages of hearings and 183,000 
pages of bills, resolutions, and amendments were required. There are 
often estimating variances in this account because GPO does not control 
the actual volume of work required to be performed. If a shortfall 
occurs, GPO is obligated to perform the work and temporarily finance 
the shortfall through its revolving fund. GPO will then seek to have 
the shortfall funded in a subsequent appropriation.
    Question. Almost $3 million of the requested increase for 
congressional printing and binding is attributed to estimated volume 
increases in some work categories, offset by decreases in other 
categories. How does GPO calculate the estimation for congressional 
printing and binding when formulating its budget request?
    Answer. The estimation is based on actual historical data for the 
specific categories of congressional work in past congressional session 
years and any known special printing requirements for the budget year. 
For example, in fiscal year 2012, obligations for the 2013 Presidential 
Inaugural will be incurred.

    <greek-l>GPO DEG.SALARIES AND EXPENSES OF THE SUPERINTENDENT OF 
                               DOCUMENTS

    Question. I understand that $500,000 of the requested increase for 
salaries and expenses of the Superintendent of Documents is needed for 
legacy systems migration and modernization, and historical digitization 
projects that have been approved by the Joint Committee on Printing in 
collaboration with the Library of Congress (LOC). Please describe for 
the subcommittee the legacy systems and historical digitization 
projects that would benefit from this funding. What is the plan for 
digitizing legacy collections of Federal publications? If the 
subcommittee is not able to provide the requested funding in fiscal 
year 2012, what is the impact to these projects?
    Answer. The GPO is migrating five critical legacy systems that are 
not currently supportable to a modern sustainable architecture (the 
Depository Distribution Information; Acquisitions, Classification, and 
Shipment Information; Automated Depository Distribution; Item Lister; 
and Amendment to Item Selection systems). This is called the Library 
Information System Transformation (LIST) Project, and it is part of an 
ongoing effort for system modernization that has been funded in the 
past. Approximately $400,000 is needed to complete the migration. An 
additional $100,000 is required to support an ongoing collaboration 
with the LOC to digitize historic printed issues of the Congressional 
Record dating to 1873. Lack of funding will result in project delays, 
and where legacy systems are concerned, will prolong the vulnerability 
of these dated systems to malfunction or breakdown.
    Question. Of the requested increase, $304,000 is for the annual 
operating costs of the Federal Digital System (FDSys). Is this an 
increase from previous annual operating costs? If so, why has this cost 
increased?
    Answer. The increase is attributable to necessary support tasks 
that were not initiated in fiscal year 2011, including support for 
parsers, applications, and developmental tools that has not been 
contracted for in fiscal year 2011. The GPO anticipates that an 
additional $304,000 will be required to support FDSys to enhance 
permanent public access and ensure system availability.

                    <greek-l>GPO DEG.REVOLVING FUND

    Question. I understand that $5 million is included in the fiscal 
year 2012 budget request to continue the development of the FDSys. How 
much has been spent to date on getting this new system up and running? 
How much additional funding is necessary to complete the installation 
of this system? When it is completed, what is the anticipated annual 
cost of maintaining FDSys?
    Answer. FDSys is the successor system to GPO Access, our original 
Web site, which began operations in 1994 and provided free online 
access to information from the Congress, Federal agencies, and the 
courts. FDSys provides free public access to the same range of 
information and features state-of-the-art content management and 
information search and retrieval systems that meet the needs of today 
Government information users. Through February 2011, total spending on 
FDSys has been approximately $43.6 million, and the GPO has completed 
release 1 of the system, which fully replaces GPO Access, including a 
failover continuity of operations capability. Release 2, which is the 
submission functionality of the system, is currently being developed. 
The costs of this work are expected to increase total system 
development costs to between $45 million and $50 million. In addition, 
annual operating costs are anticipated to be $3.25 million, including 
licensing, staffing, and system refresh costs (these costs are 
anticipated to decrease to the extent we can transfer contractor 
functions to the GPO staff). Future developmental costs, which are 
optional, could potentially reach $4.75 million annually. The funding 
requested for fiscal year 2012 is to complete development of release 2 
and help support annual operating cost requirements.
                                 ______
                                 
              Questions Submitted to Douglas W. Elmendorf
               Questions Submitted by Senator John Hoeven

                   <greek-l>CBO DEG.DECREASE FUNDING

    Question. While I appreciate the fact that the Congressional Budget 
Office (CBO) has presented a budget request for fiscal year 2012 that 
represents no change from the funding level provided in fiscal year 
2010, if the subcommittee is not able to provide the full funding 
request for fiscal year 2012, what would be the impact to the CBO?
    Answer. The impact of a budget reduction in 2012 would depend on 
the magnitude of the reduction. If it were modest, CBO would try to 
accommodate that reduction in ways that did not significantly affect 
the amount of information and analysis we provide to the Congress. As a 
first step, CBO would reduce its nonpay spending--primarily for 
information technology--as much as possible without degrading necessary 
support requirements. But more than 90 percent of CBO's budget 
represents compensation for the agency's staff. (About 5 percent is for 
IT equipment and services, and the remainder is for training, printing, 
furniture, office supplies, and related items.) Therefore, a 
significant reduction in the agency's budget would necessitate a 
downsizing of CBO staff--preferably by attrition--but under some 
scenarios, layoffs might be necessary.
    Because the demand for CBO's analysis by the Congress already far 
exceeds the agency's current ability to provide it, reducing staffing 
could slow the production of cost estimates and mandate statements for 
pending legislation, delay analyses of large-scale budget proposals, 
limit the types and complexity of analyses the agency could undertake, 
reduce the number and scope of alternative legislative provisions the 
agency could examine, and decrease the number of amendments to bills on 
the floor of the House and Senate for which estimates can be generated. 
CBO would prioritize requirements to meet the most critical efforts 
required for the Congress to accomplish its mission. However, 
downsizing accomplished through little or no new hiring to replace 
departing staff would probably result in an allocation of staff that 
was not well-matched to Congress's needs.

                  <greek-l>CBO DEG.IMPACT ON ANALYSES

    Question. What can the Congress do to change its requirements and 
expectations of the analyses that CBO provides, given the fact that we 
may have to decrease funding for the agency?
    Answer. Both the timeliness and the quantity of CBO's products 
could be affected. The agency would work closely with the budget 
committees to identify the ways to adjust CBO's output so as to 
maintain the most support possible for the congressional budget 
process.
    As specified by the Congressional Budget Act, much of CBO's work is 
for committees. They might need to allow more time between when bills 
are marked up and when they are reported in order to obtain CBO cost 
estimates and mandate statements for reported bills. (Those are 
required by the Congressional Budget Act.) Committees might seek less 
analytical support in drafting legislation in the form of fewer 
requests for cost estimates for alternative policy proposals and for 
broad policy studies--and they might need to allow for greater 
turnaround time on such work. The preparation of testimony is very time 
consuming; the CBO might need to limit testimony to the highest-
priority requests.
    When feasible, the CBO also tries to respond to requests for 
information from individual Members. If the CBO were smaller, Members 
would need to anticipate that fewer of those requests could be 
addressed. The CBO also has been doing more and more estimates for 
floor amendments; the leadership and the Budget Committees might need 
to allow more time for such estimates or allow for the fact that the 
CBO might be able to prepare fewer such estimates in the short time 
that is usually available.

                          SUBCOMMITTEE RECESS

    Senator Nelson. So I appreciate very much your answers and 
your proposals. Obviously, we are going to continue to try to 
work together to get this done in a fair and appropriate way.
    So thank you all.
    With that, we are recessed. Thank you.
    [Whereupon, at 3:58 p.m., Thursday, March 17, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
